<html>
<title> - IS VA READY FOR FULL IMPLEMENTATION OF APPEALS REFORM?</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


         IS VA READY FOR FULL IMPLEMENTATION OF APPEALS REFORM?

=======================================================================

                                HEARING

                               BEFORE THE
                               
                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      WEDNESDAY, DECEMBER 12, 2018

                               __________

                           Serial No. 115-84

                               __________

       Printed for the use of the Committee on Veterans' Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        Available via the World Wide Web: http://www.govinfo.gov
                     
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-949                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                     
                     
                     
                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   CONOR LAMB, Pennsylvania
JODEY ARRINGTON, Texas               ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
BRIAN MAST, Florida
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            
                            C O N T E N T S

                              ----------                              

                      Wednesday, December 12, 2018

                                                                   Page

Is VA Ready For Full Implementation Of Appeals Reform?...........     1

                           OPENING STATEMENTS

Honorable David P. Roe, Chairman.................................     1
Honorable Elizabeth Esty, Ranking Member, Subcommittee on 
  Disability Assistance and Memorial Affairs.....................     3

                               WITNESSES

Honorable James Byrne, Acting Deputy Secretary, U. S. Department 
  of Veterans Affairs............................................     4
    Prepared Statement...........................................    35

        Accompanied by:

    The Honorable Cheryl L. Mason, Chairman, Board of Veterans' 
        Appeals, U. S. Department of Veterans Affairs

    Mr. David R. McLenachen, Director, Appeals Management Office, 
        Veterans Benefits Administration, U. S. Department of 
        Veterans Affairs

    Mr. Lloyd Thrower, Deputy Chief Information Officer, Account 
        Manager, Benefits Portfolio, Office of Information & 
        Technology, U.S. Department of Veterans Affairs

Ms. Elizabeth H. Curda, Director, Education, Workforce, and 
  Income Security Team, U.S. Government Accountability Office....     6
    Prepared Statement...........................................    37

                        STATEMENT FOR THE RECORD

Paralyzed Veterans Of America (PVA)..............................    49

 
         IS VA READY FOR FULL IMPLEMENTATION OF APPEALS REFORM?

                              ----------                              


                      Wednesday, December 12, 2018

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:00 a.m., in 
Room 334, Cannon House Office Building, Hon. David P. Roe 
[Chairman of the Committee] presiding.
    Present: Representatives Roe, Bilirakis, Coffman, Flores, 
Radewagen, Bost, Poliquin, Dunn, Arrington, Higgins, Bergman, 
Banks, Takano, Kuster, O'Rourke, Correa, Lamb, Esty, and 
Peters.

          OPENING STATEMENT OF DAVID P. ROE, CHAIRMAN

    The Chairman. I call the meeting to order.
    Good morning.
    Thank you all for being here today.
    This is the final hearing we will hold this session on the 
Implementation of the Veterans Appeals Improvement and 
Modernization Act of 2017, also called AMA.
    Let me start by thanking Acting Deputy Secretary Byrne for 
his being here today. Thank you for being here.
    As you know, the AMA requires the Secretary to certify in 
January of 2019 that the Department has the resources, 
personnel, and procedures and information technology to carry 
out the new appeals system while timely addressing both new and 
legacy appeals.
    The AMA also provides the Secretary with the authority to 
delay the effective date of the law if VA is not fully prepared 
to implement appeals reform.
    Since the Secretary is responsible for certifying that the 
Department is ready, I believe that it is important for 
Congress and the veteran community to hear from senior 
leadership on the status of the implementation.
    I understand that Ms. Mason has been delegated the 
authority to oversee the implementation, but your presence here 
today, Mr. Byrne, demonstrates the Secretary's commitment to 
ensuring this program is implemented correctly.
    And thank you all for being here.
    Today, I want to talk about the VA's progress, updating its 
IT system, publishing final implementing regulations and forms, 
and completing training for employees, and appropriately 
allocating staff and resources, which all must be completed 
within the next 2 months.
    I was encouraged by the recent August and November updates 
to VA's comprehensive plan, which showed the steps VA is taking 
to effectively overhaul the current appeals process.
    However, I am uncertain that all the components needed for 
appeals reform will be completed on time. While we are all 
excited for appeals reform to roll out, it is also important 
for VA to understand that this Committee does not wish for VA 
to push out the new appeal system in February if it is not 
truly ready. That is one lesson we have all learned from the 
Forever GI Bill implementation.
    One of my main concerns is whether VA's IT system will be 
fully the functional by February of 2019. VA needs robust IT 
systems that are capable of handling appeals under the AMA.
    During the July appeals hearing, Under Secretary for 
Benefits, Dr. Lawrence, testified that about 100 percent of the 
IT functionality will be delivered by this month, and I would 
like to know if that timeline remains accurate.
    If VA appeals IT will not be ready in time, I want to hear 
what the VA's contingency plan is.
    Turning to regulations, according to the November 2018 
appeals report, VA said it planned to send OMB the final 
regulations for approval by November 13, 2018. I would also 
like to know whether this has taken place.
    Additionally, I am looking forward to an update from VA 
about how it intends to effectively balance appeals under the 
new system and the legacy inventory. Right now, VA has almost 
400,000 appeals pending.
    VA anticipated that the Rapid Appeals Modernization 
Program, or RAMP, which allows veterans who have pending 
appeals to transfer to the new system would help reduce the 
backlog. However, RAMP has had only a 16 percent take break 
from the legacy inventory.
    I would like to hear today how long it will take VA and the 
board to decide all remaining legacy appeals, whether it be 1, 
5 or 10 years.
    Despite RAMP's low opt-in rate, I am curious about how the 
Department has used the feedback it has received from RAMP to 
test assumptions and to make adjustments to the new appeals 
system accordingly.
    I want to make sure that VA is using RAMP to inform the new 
system, and not as a means to disguise a true size of the 
appeals backlog.
    I also would like to hear about the training provided to 
employees. My staff visited the Denver regional office in 
October, and the employees shared that VA's guidance on the new 
system was confusing and that they needed additional training 
to understand the new procedures.
    I am hoping to have a productive discussion today to ensure 
that when the law is fully implemented, all veterans will 
receive correct and timely decisions.
    Again, I want to thank the witnesses for being here today 
to discuss this important matter.
    And just as an aside, I have spoken to several veterans who 
have opted into RAMP program. And when they do, the results 
have been good. I will have to say, I have been encouraged by 
that. And if it is scalable, if we have the capacity to do it, 
and that is what we will hear from you all today, then I think 
it has a chance to be very successful.
    I can remember sitting right down there 10 years ago, and 
there were 1 million appeals claims backlog. So even though it 
doesn't--400,000 is a lot--if you are one veteran out there 
whose appeal hadn't been looked at, it is 100 percent for you, 
there has been improvement and changes have been made.
    I would now like to yield to Ranking Member Esty for her 
opening comments.

OPENING STATEMENT OF ELIZABETH ESTY, RANKING MEMBER, DISABILITY 
                ASSISTANCE AND MEMORIAL AFFAIRS

    Ms. Esty. Thank you, Mr. Chairman. And I associate myself 
with all of his comments, in particular, the same issue areas 
that I think all of us on the Committee would like to get your 
review of, your guidance, your input, so that together we can 
move this forward.
    I am happy to welcome everyone here today as we enter the 
home stretch on the implementation of the Appeals Modernization 
Act.
    Today is this Committee's final check-in with GAO, the 
Veterans Benefits Administration and the Board of Veterans 
Appeals before the Act is fully implemented on February 14, or 
thereabouts, as we have already discussed.
    From what I am reading in the testimony, all systems look 
to be a go. The Secretary is expected to certify in January 
that the VA has the resources, personnel, office space, 
procedures, and information technology required. But before 
that happens next month, I wanted to step back for a moment and 
highlight the process by which we arrived here, because I 
believe it is a model that for large-scale policymaking that 
other Committees--this Committee and other Committees--should 
look to duplicate.
    First and foremost, appeals modernization has been 
bipartisan from the beginning almost 4 years ago.
    Second, the statute set in place an innovative system of 
progress reports from both VA and GAO at regular intervals as 
implementation planning was playing out.
    Third, full VSO participation in all stages is required by 
the statute. That is unprecedented. And I am happy to report 
that having checked with the VSOs this week and throughout the 
process, they have generally been quite well-pleased with the 
feedback they have been given the opportunity to share with VA. 
And it has not only been shared, but they are seeing evidence 
of that being incorporated in the planning process.
    We want to make sure that that continues, and we want to 
make sure that that is reflected in the OMB regulations.
    I strongly encourage this structured VA, GAO communication 
to continue after the rollout, because it is the veterans 
service representatives all around the country who are working 
with veterans every day, and they are in the best position to 
give you constant feedback about how, in fact, all this 
planning is playing out in the real world.
    Another innovation in this law we are studying and applying 
more broadly is the authority that the statute provides VA to 
pilot various components. Both VBA and BVA did avail themselves 
of this authority, and I know that the lessons learned in these 
pilots will mean and are already meaning a faster and fairer 
process for veterans in the end. And that is after all, the 
point of this whole undertaking.
    We are on the verge of one of the most significant 
improvements in a generation in how veteran disability 
compensation claims are processed. And I want to congratulate 
all those who have worked so hard to make these historic 
changes possible.
    I want to congratulate our esteemed Chairman, Dr. Roe, to 
the DAMA Subcommittee and Chairman, Mr. Bost, to the leadership 
in the VA in two different administrations, to Chairman Isakson 
and Ranking Member Tester, our counterparts in the Senate, and, 
of course, to the leadership of the VSOs who are willing to put 
aside quite a few concerns and differences at the start of this 
process to bring us all together to the table to come to where 
we are today.
    I have some questions as well as about the IT systems, but 
I will reserve those for later. But because this is my last 
opportunity as a Member of this Committee to publicly comment 
on this important reform, I want to end my remarks with two 
points.
    First, with optimism. With optimism about the possibilities 
that appeals reform hold to make more accurate and timely 
disability compensation for veterans. And secondly, with an 
appreciation for the unprecedented willingness that has been 
shown by all to communicate constantly and to work together in 
the service of the same goal. That is serving the veterans that 
we are sworn to serve in honor for what they have provided to 
this country.
    It has been a pleasure over the last 2 years to be on this 
Committee, the last 6 years in Congress working on behalf of 
veterans. And I want to again thank the Chairman for his 
leadership, my Ranking Member counterpart, the Chairman of the 
Subcommittee, Mr. Bost, and for all the Members of this 
esteemed Committee and for our guests here today. Thank you for 
your work every day on behalf of veterans.
    Thank you, Mr. Chairman, and I yield back.
    The Chairman. I thank the gentlelady for yielding and for 
your kind comments.
    Joining us today is the Honorable James Byrne, the Acting 
Deputy Secretary. He is accompanied by the Honorable Cheryl 
Mason, Chairman of the Board of Veterans Appeals, David 
McLenachen, Director of Appeals Management Office at the 
Veterans Benefits Administration, and by Lloyd Thrower, the 
Deputy Chief Information Officer, Account Manager, Benefits 
Portfolio of the Office of Information and Technology; and 
Elizabeth Curda, the Director of Education, Workforce and 
Income Security Team for GAO.
    Thank you all for being here this morning.
    Acting Deputy Secretary Byrne, we will start with you. You 
are recognized for 5 minutes.

               STATEMENT OF HONORABLE JAMES BYRNE

    Mr. Byrne. Good morning, Chairman Roe, Ranking Member Esty, 
and Members the Committee.
    Thank you for inviting me to testify on VA's implementation 
of the Veterans Appeals Improvement and Modernization Act of 
2017.
    My thanks to this Committee for its devotion to veterans, 
for its strong support of veterans and VA, and for keeping all 
of us above partisan politics. I have been Acting Deputy 
Secretary for just over 3 months. The year before, I served as 
the VA's general counsel. And what is clear to me in a short 
time, and to anyone watching, is that VA is on the cusp of the 
most comprehensive improvements since World War II. In large 
part, that is thanks to this Committee's work and the 
administration's unmitigated support.
    Appeals modernization is just one example of historic 
legislation Congress has given veterans in the last 2 years. I 
am happy to report, that thanks to Cheryl's, Dave's and Lloyd's 
leadership and their team's great work, we are on track for 
operational launch in February.
    We will continue to keep the Committee apprised of our 
progress, and alerted to any early or delayed publication of 
the regulations.
    Before we take your questions, I would like to quickly 
touch on a few points. First, board and VBA IT teams have fully 
integrated their activities and worked collaboratively and 
productively over the past year. We expect to meet all appeals 
modernization IT milestones.
    Appeals modernization implementation is not facing the IT 
challenges we have seen with Forever GI Bill implementation.
    Second, I appreciate concerns that appeals modernization 
could distract from legacy appeal work, but we continue making 
historic progress on legacy appeals.
    We reduce the appeals inventory by 9.6 percent in fiscal 
year 2018, despite receiving nearly 188,000 new appeals.
    VBA exceeded their production targets by 12.5 percent, and 
the board issued a record number of decisions. 62 percent more 
than fiscal year 2017.
    We accomplished this by resolving over 168,000 appeals and 
administering the Rapid Appeals Modernization Program, RAMP. We 
will continue balancing resources with requirements and 
preserve focus on legacy appeals through implementation and 
beyond.
    Third, to facilitate smooth implementation, we set and 
achieved aggressive hiring goals, and the board and VBA have 
collaborated on training and outreach.
    The board has provided staff large-scale training that will 
continue through full implementation, and VBA developed, 
delivered and continuously updates training for employees 
involved in RAMP and the new processes.
    Finally, both RAMP and the Board's Early Applicability of 
Appeals Modernization Initiative, BEAAM have effectively tested 
processes, technology and assumptions and helped inform the new 
system, RAMP, giving eligible veterans opportunities to have 
decisions reviewed under modernize processes.
    As of last Wednesday, veterans had moved over 75,600 
appeals from the legacy to the modernized process.
    VBA has completed nearly 33,000 higher-level review and 
supplemental claims decisions under RAMP, on average, in about 
120 days, and has paid almost $137 million in retroactive 
benefits.
    In October, the board began adjudicating appeals in RAMP. 
As of Monday, they received over 930 RAMP appeals.
    BEAAM, the smaller scale research program, has captured 
qualitative feedback from veterans and representatives that 
will further inform implementation. The board will provide 
BEAAM outcomes in its assessments later this month.
    Appeals modernization is a good news story for veterans and 
VA. We collaborated on realistic, effective, flexible plan and 
we have been executing against that plan and making steady 
progress. Veterans can expect a modernized appeal process on 
time in February 2019.
    Thank you for your support and for inviting us to testify 
today, and we look forward to your questions.

    [The prepared statement of James Byrne appears in the 
Appendix]

    The Chairman. Thank you, Mr. Byrne.
    And now, Ms. Curda, you are recognized for 5 minutes.

                STATEMENT OF ELIZABETH H. CURDA

    Ms. Curda. Chairman Roe, Ranking Member Esty, and Members 
of the Committee, thank you for inviting me to discuss GAO's 
observations on VA's readiness to implement the reform of its 
disability appeals system.
    I would like to commend the Committee for your extensive 
oversight of VA's planning for this complex endeavor.
    The new process will affect the lives of hundreds of 
thousands of veterans with disabilities, and therefore requires 
careful planning to improve VA's chance of success.
    Last March, we reported that while VA's initial plan 
reflected aspects of sound planning, improvements were still 
needed to provide greater assurance that appeals reform will be 
successful.
    We recommended VA's plan, one, address all legally required 
elements in the Appeals Modernization Act.
    Two, articulate how it will monitor and assess the 
performance of its appeals processes.
    Three, augment its project plan for implementation.
    And, four, address risks more fully.
    VA agreed with our recommendations.
    Today, I will discuss our observations on how VA's updated 
plan reflects progress in implementing our four recommendations 
and areas where their plan could be more robust.
    First, regarding the five legal requirements that were not 
fully addressed in March, VA has addressed one element related 
to projecting productivity and partially addressed four 
remaining elements.
    For example, VA's plan does not contain required metrics 
for monitoring implementation, and is still missing information 
the agency will need to certify that it has the resources 
needed to carry out timely processing under the new and legacy 
appeals processes.
    Regarding assessing the performance of the new process, VBA 
has established some new performance measures and has plans to 
develop more.
    For example, VA has taken steps to be able to measure and 
compare veterans' satisfaction with the new and legacy appeals 
processes.
    VA officials have stated they plan to establish a balanced 
set of performance measures for all five new appeals options, 
as we recommended, but VA has not yet documented all of these 
measures, or how it will assess the relative performance of the 
new and legacy processes.
    Regarding project management, VA has augmented its project 
plan to a limited extent. Last March, we reported that VA's 
high-level master schedule did not include all key activities, 
show how activities should be sequenced, reflect interim goals 
and milestone for monitoring implementation, or assign 
resources for activities.
    Although VA's project plan provides significantly more 
detail than it did initially, we found the plan only minimally 
met sound practices for project management.
    For example, the schedule did not contain a work breakdown 
structure that defines the work, activities and resources 
necessary to accomplish tasks.
    Further, according to VA's schedule, the agency needs to 
complete 117 activities between January 1 and when it plans to 
implement in February. The lack of a robust schedule poses 
risks to successful and smooth implementation in February.
    Finally, regarding addressing risks more fully, VA has 
addressed many, but not all key risks to implementation. For 
example, VA is better positioned to mitigate risks by using new 
analytical tools to better project resource needs under 
different assumptions about opt-in rates and productivity.
    VA has also addressed risks by testing the two appeals 
options at VBA through RAMP and using preliminary results to 
update elements of the appeals process.
    VA also initiated a small scale non-generalizable test of 
the three new board options. VA has used this limited test to 
learn about veterans' preferences among the new board options 
and to update the training, guidance systems and forms needed 
for full implementation. However, VA has not tested all aspects 
of the new appeals process.
    For example, VA only recently began adjudicating cases for 
veterans in RAMP who are allowed to appeal subsequently to the 
board.
    VA's August 2018 progress report identified a risk that 
veterans may appeal to the board at higher rates, which could 
have implications for timeliness and quality of decisions. 
However, VA's plan does not identify a mitigation strategy for 
this significant risk.
    In summary, VA has made some concrete progress to improve 
its planning for disability appeals reform while it attends to 
legacy appeals. However, significant risks exist with launching 
the new process in February. Fully implementing our 
recommendations could better position VA to ensure successful 
implementation, but doing so prior to February 2019 may be 
challenging.
    The option remains to phase in implementation to allow time 
for more testing and plan improvements. In any event, even 
after implementation, VA could better assure that the new 
process meets veterans' needs by continuing to improve its 
approach to performance measurement, scheduling and risk 
management.
    This concludes my prepared statement, and I will be happy 
to address the Committee's questions.

    [The prepared statement of Elizabeth H. Curda appears in 
the Appendix]

    The Chairman. Thank you, Ms. Curda.
    I will start yielding myself 5 minutes, and I will start 
with Mr. Byrne.
    We are 2 months out from the earliest date, and I heard you 
say, I think three times, out from the earliest date that 
appeals modernization will be fully implemented.
    Do you know if the Secretary intends to certify, hearing 
what Ms. Curda just said, that appeals reform is ready for full 
implementation next month? That is when he has to certify, 30 
days out.
    Mr. Byrne. That is correct, sir. He is ready to certify in 
January, based on what we know now.
    The Chairman. Okay. Knowing that, then I will go straight 
to the next question, which is directed at you also, Mr. Byrne, 
is that VA agreed with all four of GAO's recommendations in 
March of this year that improved planning practices would be 
better to ensure successful appeals reform.
    Does VA continue to agree with those recommendations?
    Mr. Byrne. I am trying to remember all. There were four of 
them. Yes, sir, I believe so. I may ask for Chairman Mason to 
help me with that question, if that is okay.
    The Chairman. Fine. Oh, absolutely.
    Ms. Mason. Yes, sir. VA does continue to agree with GAO's 
recommendations, and we are working very closely with GAO in 
implementing some of those changes and taking some of the 
suggestions and working towards a more robust plan.
    The Chairman. Well, then, having, if we are ready to go and 
GAO says there are 117 activities that they would recommend, 
they are not sure you can get to that point--and, look, I am 
all for if it takes another month, believe me, after going 
through this GI bill. If it is March when we certify, I don't 
have it any problem with that. Some people have been waiting 
for, you know, 5, 6, 7, 8 years. And so I think another month 
to get this out right. And I think you all have made tremendous 
progress, but how would you answer, Mr. Byrne or Ms. Mason, 
either one, her comments just a minute ago that a phased-in 
approach might be better?
    Mr. Byrne. My understanding is we are ready to go and will 
alert this body if we are going to be able to implement earlier 
or later.
    As I understood some of the recommendations, that they were 
about backup and redundancy plans, and I believe we have 
addressed some of those. I am not best positioned, maybe, to 
answer those, but the two core issues are, are we ready with 
the regulations? Are we ready with the IT? And it is my 
understanding that we are, and I have good reason to believe, 
based upon questions to these folks that we are.
    The Chairman. And just a question on the IT, I guess, Mr. 
Thrower, and when you put this, and I assume you were the 
project manager on putting the system together, how is it that 
this--you think this IT system is going to work and the GI bill 
didn't.
    Mr. Thrower. Well, actually I am not the project manager, 
but I am the liaison between OINT and--
    The Chairman. Okay.
    Mr. Thrower [continued].--and the board in managing this. 
But this is actually a very different scenario than the GI 
bill.
    First off, let me just tell you, as of this past weekend, 
we have deployed the solution for all of the quirks of VMS that 
are required to implement this bill. It is deployed and ready 
in the field.
    The Caseflow work has been incrementally delivered over the 
last 9 months. There are maybe two things that I know of that 
they are finishing up over the next month, and those I have 
very good confidence about.
    A very important difference in this scenario than the GI 
bill scenario, is that it in this instance we are updating--to 
accomplish this, we are updating two critical VA systems that 
we have actually had boots on the ground working very hard long 
before this path, before this bill passed.
    Their teams, execution teams were very familiar with the 
code, they were fully funded, and the level of requirements 
that we had to deal with was simpler.
    The Chairman. I think you had another thing, too. I think 
the idea that you phased in RAMP allowed you to see through any 
hiccups in there without just having all of it dumped in your 
lap at one time. I think that was a very smart way to do it, to 
begin the way you did.
    Mr. Thrower. Yes.
    The Chairman. And then if there were problems, they weren't 
major problems affecting hundreds of thousands of people, they 
are affecting a few hundred, or a few people maybe, and you 
could see those. And I think there is a lesson to be learned 
there. I truly do.
    Mr. Thrower. That is a very good observation, sir. Thank 
you.
    The Chairman. Mr. Lamb, you are recognized for 5 minutes.
    Mr. Lamb. Thank you, Mr. Chairman. If I could pick up where 
the Chairman left off, Mr. Thrower, could you walk us through 
that a little bit how the rollout of new IT in this pilot 
project worked and maybe what the lessons are for other IT 
projects we have in the VA?
    Mr. Thrower. Let me think about it. Okay.
    Mr. Lamb. I guess I am just asking, are there concrete 
examples in the last year or so?
    Mr. Thrower. I will say that the most important--I think, 
that this was an excellent example of where the organization 
fully implemented its agile development principles, where we 
had incremental deliverables scheduled throughout the process.
    First, we had very tight integration with the business, 
from day one. So there was no air gap between us in terms of 
understanding of requirements and what was needed.
    We laid out a schedule early on of capabilities that needed 
to be done in May and September and in December, which we 
actually published in our report to Congress that you had 
available to you on the VBMS side.
    On the Caseflow side, we were doing incremental waves of 
development, actually, from the last 2 years, that are all fed 
into the successful implementation of this. So throughout--
    Mr. Lamb. And how well-tested has the Caseflow side of it 
been at this point? Do you know how many cases it has handled?
    Mr. Thrower. Actually, I would have to defer to Ms. Mason.
    Ms. Mason. The caseload is currently operational, and has 
been operational from the point that VBA puts the cases into 
the process, into the board, into intake. And then Caseflow 
Queue manages the cases. So pieces of it have been built and 
operational. So we started with the intake at the board and 
dispatch.
    So all of our dispatch cases for at least, I want to say, 
the last 6 months, I would have to double-check that, but I am 
pretty sure the last 6 months of fiscal year 2018 were handled 
through the Caseflow Dispatch Program. [MEA1]And the intake 
part where VBA sends the cases into the board, that has been, I 
believe, operational from VBA for about the same time period, 
maybe a little bit more.
    The Caseflow Queue Program at the board, which manages the 
dockets, that has been fully operational for the past couple of 
months.
    We phased it in as well. There was a user-tester period, 
and then we have continued to phase in. We are currently in 
final user-testing in phase-in for how the cases within AMA and 
legacy will be used through the algorithm that actually manages 
how the cases are dispersed.
    So we are pretty operational with all of the cases 
currently at the board.
    Mr. Lamb. I guess I am just asking for an estimate of the 
sample size that have been tried in that new program.
    Ms. Mason. I would have to take the current--I would have 
to take that as a do-out on that. I know majority of the cases 
dispatch from the board. This last year the 85,000, at least 
half of those came through Caseflow Dispatch, so those were all 
handled at that point.
    I would have to get back to you on how many the Caseflow 
Queue program is, but it is currently running and operational 
at the board and that is how our cases are being processed 
currently.
    Mr. Lamb. Okay. What does user satisfaction appear to be 
with that so far?
    Ms. Mason. It is very high at the board.
    Mr. Lamb. Yeah.
    Ms. Mason. Dave?
    Mr. McLenachen. Same thing. Yes, actually Chairman Mason is 
correct. In fact, one of the first pieces that Caseflow 
delivered was when we certify a legacy appeal to the board, 
that has been in place for well over a year now, and that 
actually doesn't just help the efficiency of managing the work 
and sending it over, it actually improves the quality of our 
certifications to the board, so it has a very large impact.
    Mr. Lamb. Okay. And was that an off-the-shelf purchase or 
was that partially developed within the VA? Can you just tell 
me the history of that?
    Ms. Mason. Caseflow?
    Mr. Lamb. Yes.
    Ms. Mason. Caseflow was built by Digital Service. That is 
what they were already working on. Digital Service has been in 
VA since late 2015, and they were already working on building 
the Caseflow system before this law passed.
    Mr. Lamb. Got it. Thank you very much.
    Mr. Chairman, I yield back.
    The Chairman. Thank the gentleman for yielding. Vice Chair 
Bilirakis, you are recognized.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it.
    First question is for Acting Deputy Secretary Byrne.
    According to information provided to staff, the VBMS 
release scheduled for December 9, 2018, was supposed to include 
the remainder of the VBMS functionality needed to implement the 
law with planning, production, validation testing occurring in 
January and February.
    If after all the testing, hopefully this will now be the 
case, but VA realizes that the VBMS appeals functionality is 
not working as intended, what is VA's contingency or backup 
plan? Contingency plan, backup plan, what have you.
    Mr. Byrne. So the legacy appeals process will still be 
working for a while, and so they will fall back into those, is 
my understanding.
    Mr. Bilirakis. Can you--
    Mr. Thrower. Sir?
    Mr. Bilirakis. Yes, please. And address the new appeals as 
well.
    Mr. Thrower. Well, I will just say that the work in VBMS to 
make it done is finished. It is fully tested and is deployed.
    Mr. Bilirakis. Okay. Let me ask another question of Deputy 
Secretary Byrne. According to the November 2018 update, VA 
plans to hire 542 new claims processors. Is that correct? And 
will place them primarily at the DROC in St. Petersburg, which 
is just outside of my district in Florida and in Seattle. This 
is what I was told.
    How many of the 542 new claim processors will be placed 
into the appeals positions at DROC in St. Petersburg, the 
division in St. Petersburg?
    Mr. Byrne. Can I ask Mr. McLenachen to give you specifics 
on that?
    Mr. Bilirakis. Please.
    Mr. McLenachen. Yes, sir. It is good news here, 
Congressman.
    605 FTE was the additional appropriation we got for appeals 
in fiscal year 2019. So thanks to the Committee and others in 
Congress for that support.
    I am happy to report that about 75 percent of that hiring 
is already done. The distribution between those two locations 
is about 400 in St. Pete, and the remainder in Seattle. As I 
said, 75 percent complete. Those DROCs will be up and running 
by February.
    Mr. Bilirakis. Okay. How will you ensure that these people 
are appropriately trained, again, on the appeals process and 
the applicable laws and regulations?
    Mr. McLenachen. Yes, so, we have already hired all of the 
management team for those two locations, and we have hired all 
of the production employees with just a few exceptions. The 
majority of the production employees are already hired.
    Some of them are already in training, and we have training 
scheduled for the remainder to go into. So they are going 
through our challenge training program to prepare them for 
doing that work. That has all been scheduled and in place.
    Mr. Bilirakis. Okay. Chairman Mason, how many years do you 
estimate it will take for the board to address the current 
legacy appeals backlog? How many years would you say, 1 year, 2 
years, 3 years?
    Ms. Mason. It is going to take more than 1 year, sir.
    Mr. Bilirakis. Give me a ballpark, please.
    Ms. Mason. That is really hard for me to do without 
guesstimating right now, because the board relies on the cases 
coming in from VBA to work those legacy cases. VBA does have a 
deadline they have set, plus we are bringing in the AMA cases 
and working those, and we are balancing those.
    We do expect to be able to tell you a timeline after 
February, after we start the new process, because the legacy 
will--all the cases then will be in AMA, and we will better 
have a better number, a determination of how long it will take 
us.
    Mr. Bilirakis. Okay. So you will get back to us--
    Ms. Mason. We are going to--
    Mr. Bilirakis [continued].--to this Committee in February?
    Ms. Mason. It will be after the February 14 launch.
    Mr. Bilirakis. After the February.
    Ms. Mason. So I am hoping early spring, but as soon as I 
have it, I will report out, as I have done with my other 
responses.
    Mr. Bilirakis. Please get it to us. I would appreciate it 
very much.
    Ms. Mason. Will do so, sir.
    Mr. Bilirakis. And then, Secretary Byrne, what are VA's 
plan for comparing the performance of the legacy system, and 
new appeals process using a range of goals and measures like 
timeliness and, of course, veteran satisfaction, which is so 
very important?
    Mr. Byrne. So it is my understanding there are and will be 
several surveys to inform us going forward with implementing 
the new modernization.
    Feedback from veterans is key toward everything we do, and 
in particular, claims and appeals such as this. So it is a 
circle, it is a loop, sir, of feedback.
    Mr. Bilirakis. Okay. Can you address the timeliness as 
well? Satisfaction, sure, from the veteran, but timeliness. 
Give me a range. What is the goal as far as timeliness is 
concerned, in general?
    Mr. Byrne. So I have a general thought of that.
    Mr. Bilirakis. In general.
    Mr. Byrne. Chairman Mason can give us some specifics, I 
think.
    Ms. Mason. Sure. Both the board and VBA are monitoring our 
metrics on both performance, quality, and timeliness. And as we 
move forward, as we brought the sand table before you all in 
the spring, we are starting to plug those numbers in and adjust 
those numbers a little bit, we will have timeliness goals for 
you.
    VBA already runs those in the RAMP programs with the 
average of 125 days. The board expects to do the direct docket 
in an average of 365 days. The other two lanes, I am hoping, 
again, to get metrics on that once I get into the system. The 
current RAMP appeals program at the board is giving me some 
early data, but at this point in time, until I start running 
all five dockets and get that absolutely running and launched, 
I am not comfortable giving you full data on the timeliness, 
but I will get back to you.
    But we are monitoring all of that, and VBA and the board 
are collaborating very closely on all of that data. And we are 
running the metrics, just as we are required to under Section 5 
of the AMA.
    Mr. Bilirakis. All right. Thank you very much.
    I yield back Mr. Chairman. I appreciate it.
    The Chairman. Ms. Kuster, you are recognized.
    Ms. Kuster. Thank you. And thank you for being with us.
    I just want to go back to the veteran experience, if we 
could.
    Can you walk us through, after this is all online, what the 
veteran experience would be, what their choices would be, and 
what the timeframes would be that they can expect for 
resolution of their claim?
    Mr. Byrne. I can pull out my chart and follow it, ma'am, 
but I can assure you that Chairman Mason, right off the top of 
her head, can walk you through that in very, very fine detail.
    Ms. Kuster. I am fine to hear it from her. I just want the 
American people to know what veterans can expect.
    Ms. Mason. So first and foremost, we are working very 
closely with the Office of Veterans Experience within the 
Department and working on those surveys. We already have 
surveys launched, and we are already receiving satisfaction 
information back on those. We have already started receiving 
those. So that is the first thing we are looking at.
    Second thing we have also launched is the appeals status 
tracker on the VA website to allow veterans to log on and see 
exactly where their appeals is and exactly where the claims is. 
And that provides them feedback where they are. So those things 
are already lunched and running.
    Both the board and VBA have been very transparent with our 
numbers on how we are doing and what we are doing. Both in 
training programs when Mr. McLenachen and I have been out 
speaking, whether together or separately, we have provided the 
time lines for 125 days for VBAs, what their expectation, and 
that is an average.
    We will continue to monitor that within VBA. And then at 
the board, again, the direct docket is the 365 lane, we expect 
to complete those within the 365--
    Ms. Kuster. Including a hearing?
    Ms. Mason. Hearings are not. Hearing is a separate lane. 
The additional evidence lane, which is 90 days, additional 
evidence submission and the hearing lane are going to take a 
little bit longer.
    The situation with hearings with the board is I currently 
have 71,000 veterans in the legacy who have requested hearings. 
And I am working on those. I have redistributed my resources, 
and I expect to announce something very soon with the 
collaboration with OIT on hearings, which will impact the 
ability of the board to hold more hearings.
    Ms. Kuster. Do you have sufficient resources and personnel 
to process the 71,000 hearings?
    Ms. Mason. I do. It is going to take me a minute, but we 
have actually reduced that number. We started the year with 
over 80,000, and we were able to hold 16,000 hearings last 
year. We offered 24,000. Veterans either rescheduled or did not 
appear for approximately 9,000 of those cases.
    This year we expect to offer--we have already started--but 
we expect to offer over 34,000 hearing opportunities. To date, 
the board has held over 4,500 hearings, which is ahead of 
schedule from what we offered last year, and we are continuing 
to do that.
    Ms. Kuster. So it would take somewhere between 2 to 5 years 
to process the backlog? How many new hearings are requested 
every year?
    Ms. Mason. Right now with the appeals, with the AMA coming 
in, out of the 930 RAMP cases the board has received to date, 
450, approximately 450 of those are hearing requests.
    Ms. Kuster. So half, roughly half.
    Ms. Mason. That is generally what we have seen. That is 
generally our average, is about half request hearings. That is 
something we are looking, and I have already started to change 
my resource allocation with my judges on how we handle the 
decisions and the hearings. And I expect that will have an 
impact going forward. And as we start to implement those 
changes, I will be happy to report back to you all on how we 
are doing.
    Again, the board does report information on its website on 
a regular basis, usually weekly, on how we are doing on the 
decisions dispatched, as well as the hearings held. And that is 
our mission. Those two things are our mission, and that is my 
job, is to make sure that we do them and we get those results 
to veterans.
    Ms. Kuster. And our job is to make sure you have the 
resources to do that. So just trying to do the math in my head, 
it doesn't sound as though you will be able to process the 
backlog while you keep up with half of the new cases requesting 
hearings.
    So I would just recommend to the chair and to the incoming 
chair next session that we consider additional resources to 
help you get through this. So thank you.
    Ms. Mason. Thank you, ma'am.
    Ms. Kuster. I yield back.
    The Chairman. I thank the gentlelady for yielding.
    Mr. Coffman, you are recognized.
    Mr. Coffman. Thank you, Mr. Chairman.
    Chairman Mason, the--Chairwoman Mason, the RAMP pilot was 
implemented to test the new appeals process prior to full 
implementation.
    Your testimony indicates RAMP has been successful. Noting 
over the past year, 74,399 appeals were processed using RAMP, 
which reduced the legacy appeals inventory.
    What percent of these RAMP appeals met quality standards? 
Specifically, how many appeals decisions received a quality 
review to ensure accuracy and identity errors that would 
warrant retraining for employees?
    Ms. Mason. So, first, I am going to answer the question as 
to RAMP appeals at the board, which started in October, and 
then I am going to hand it over to Mr. McLenachen for the VBA 
RAMP program that started last November because he has that 
data and he is in charge of that piece.
    As far as RAMP appeals at the board, we have our quality 
review system in place, and we are running quality review. We 
did quality review on the first 40 RAMP appeals that were 
issued, and since then, we have run the statistical standard on 
that.
    We have not yet seen any indications of a need for training 
or trends there, but we are working it closely. Our current 
quality rate at the board for both the RAMP appeals and for 
board decisions is over 92 percent.
    Mr. McLenachen?
    Mr. McLenachen. So we look at quality in a number of 
different ways in the RAMP program. Keep in mind, this is a 
temporary program, so we are really focused on setting up a new 
quality assurance program for the high-level reviews when we 
start that process in February.
    But for RAMP, we actually did 100 percent quality review 
during the training for the 12 stations that are doing the RAMP 
processing in VA.
    In addition to that, we have a local quality assurance 
program where a sample of the work that is being done is 
reviewed locally. In addition to that, we have done four site 
visits at some of the stations that have been processing RAMP 
the longest. That included taking samples of claims that were 
decided and reviewing quality on that basis.
    We are also doing special focus reviews. And this was 
primarily to ensure that, because it is a little bit of a 
cultural change for higher-level reviewers, in particular, that 
they are following the procedures that we put out for RAMP. And 
so those special focus reviews really zeroed in on that.
    So we have a really comprehensive program for reviewing the 
RAMP decisions and making sure they are accurate, but I wanted 
to point out, one of the advantages of the RAMP program is once 
they get a decision, they are in the new process. So that means 
that they have that control and the options over their review 
that they would have after February, anyway.
    So if they are still dissatisfied after that decision that 
they get on an average of 120 days, they have all the options 
and the benefits of the new process that was in the law. And to 
include choosing another option, then, once they get that 
decision. So really, that is the real advantage of opting-in 
through RAMP, is you get all the benefits of the new system.
    Mr. Coffman. Chairwoman Mason, how are VBA and BVA 
ensuring--and I think part of this was answered--ensuring the 
quality of claims processed using RAMP and BEAAM?
    Ms. Mason. So the BEAAM, again, was a small-scale program 
that the board tested to see if our communications and what 
veterans were understanding in various different organizations 
from the VSOs as well as our advocates, and so we were able to 
get feedback from the BEAAM program, qualitative feedback, and 
change some of our form letters and respond that way to the 
feedback.
    So that is the BEAAM portion.
    The board and VBA work very collaboratively together on our 
training and our quality review process, and recently, in 
November, the board and VBA launched an appeal to training 
initiative that we are working together to provide training to. 
Really it is a dual-training action.
    We provide some training to VBA, and they give us some 
feedback on what they are seeing with our cases. And we just 
launched that project. It has got great feedback initially, and 
that is how we expect to move forward. That is the vehicle we 
are going to use as we move out to process the feedback and the 
trends that we are seeing as a result of that.
    Mr. Coffman. Mr. Chairman, I yield back.
    The Chairman. I thank the gentleman for yielding.
    As Ms. Mason, if you wouldn't mind, would you send us a 
blank survey, one of those surveys so both sides of the aisle 
can look at that? We would just like to see it.
    Ms. Mason. Absolutely. We can get that from the Veteran 
Experience Office. Happy to do it.
    The Chairman. Thank you. Mr. O'Rourke, you are recognized.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    From the opening testimony, it seemed as the though the GAO 
was telling us that we weren't ready for implementation in 
February. And based on your recommendations, you didn't feel 
like there was enough time for VA to implement those, and you 
suggest a phase-in approach.
    And then if I heard you correctly, Mr. Secretary, you feel 
that the VA is ready and that there is no need to have a phase-
in approach.
    So I wonder, Ms. Curda, given what you have heard from 
Secretary Byrne and Chairwoman Mason, whether their answers to 
our questions so far address your outstanding concerns and 
whether you agree with them that they are ready to go. If not, 
I would love for you to share with us what you think the 
consequences are if the VA goes without having addressed the 
legal requirements, the performance measures, the project 
management concerns, including 117 activities--you mentioned 
there is not a robust schedule to implement those--and then the 
risks, which is your fourth point.
    Ms. Curda. Certainly. I mean, I think that there is nothing 
I have heard today that is surprising. We have been talking to 
the VA folks all along, and we certainly have their perspective 
on this.
    I would say the biggest risk, from our perspective to 
implementation is the risk that when veterans are faced with 
five new options which has not been tested before, that larger 
numbers of them will go, opt for a hearing at the board. That 
is the most resource-intensive option and could have 
implications for the ability of the board to process legacy 
claims, and also to take care of the folks that are now signing 
up for something new and they were hoping that would get better 
for them.
    So in terms of mitigating that risk, you know, we have 
recommended taking several steps as they, if they still 
continue to fully implement, you know, articulate expectations 
for performance so they can monitor against those expectations 
and see, are we meeting goals, are we not meeting goals. And 
then, you know, even if they delay full implementation of the 
new process, they could allow more time to model-test or phase 
in the board options and develop contingency plans, if outcomes 
are not what are expected.
    In terms of another sort of big risk area is, and we have, 
you know, I think the board has alluded to this a little bit, 
this is large-scale change for everyone involved, all the 
staff, all the managers, you are hiring new people, and change 
management is complicated business and can take time. It is 
critically important to communicate to all the players, all the 
stakeholders what is happening with the change and the 
stakeholders as well, and there has to be buy-in.
    So, you know, that can take a little bit of time, and I am 
not completely sure that the change management to date has been 
as robust as it could be.
    And was there another aspect to the question?
    Mr. O'Rourke. I am just wondering if these outstanding 
concerns are not addressed and the VA does not take a phase-in 
approach and implements without being fully ready, what is the 
worst that could happen to veterans?
    And one of the things I hear you saying is there may not be 
resources there, and that is following up on Ms. Kuster's 
questions, on some unintended consequences of paths that 
veterans may choose. And perhaps, you know, the suggestion is 
that in the next Congress, we appropriate additional resources 
to meet that demand.
    I wonder, Secretary Byrne, one of the concerns raised that 
seems to be a consistent problem with the VA, and I know 
Chairman Arrington has been really good on this issue, is the 
lack of performance measures. How to know whether you are 
successful, how you are doing along the way. And that was a 
second outstanding concern from the GAO. The VA has not 
developed measures to assess performance. How would you know if 
you are successful or not?
    Mr. Byrne. So that is a fair question, and I think the GAO 
concerns are fair as well. But the big picture is, is that we 
are offering the veterans choice and control over the appeals 
process that is sort of unprecedented, making it easier and 
very veteran-user-friendly.
    The phased-in approach--I appreciate that comment--however, 
RAMP has given us a pretty good picture of how this is going to 
be implemented.
    Mr. O'Rourke. And if I could interrupt, I am out of time. 
If we don't have defined goals, we will never know how we are 
doing. You can say, we are giving it our best, we are giving 
veterans lots of options, this feels good, we have hired a lot 
of people, this is better than what it was. But if I don't know 
what the target is, how can we gauge your performance and hold 
you accountable?
    So of the concerns raised by GAO, that is the most 
concerning to me. And I hope that you can, working with the 
GAO, come up with defined performance measures that we can all 
hold ourselves accountable. I yield back to the Chairman.
    The Chairman. I thank the gentleman for yielding. Mrs. 
Radewagen, you are recognized.
    Mrs. Radewagen. Thank you, Mr. Chairman, and the Ranking 
Member. Thank you also to the panel for being here today.
    My question is for the Honorable Cheryl Mason. Chairman 
Mason, the Secretary has delegated to you the authority to 
oversee appeals reform implementation. Have you faced any 
challenges in overseeing implementation given that you do not 
have line authority over all the different elements of VA that 
are involved in appeals reform, such as VBA and OINT?
    Ms. Mason. Thank you for your question, ma'am. The board, 
the way the situation works with the board is the board is the 
Secretary's designee to handle appeals from in the Department, 
from all the administrations and general counsel. And so that 
is under the law where the board sits.
    Having said that, you are correct, the board does not have 
line authority over VBA. There is no way I can tell USB what to 
do. But we work very collaboratively in the Department. And the 
one thing I will tell you is the new Under Secretary Wilkie and 
Acting Deputy Secretary Byrne, we have implemented a very 
strong governance process where we all come together on a 
monthly basis and discuss all the issues that are before us. 
And so it is a collaborative issue. And so while I may have 
point for this, it is a collaboration.
    So if there is a concern on appeals on the VBA side or if 
there is an issue with OINT, that is something that the 
Department handles as a governance body. It is not just me. I 
am just the driver to make sure that I bring those issues to 
the governance board. To date, I have not had any issues. We 
work very collaboratively together and have done so since I 
became Chairman.
    Mrs. Radewagen. So how are you ensuring that VA has a 
comprehensive and cohesive plan to successfully develop and 
implement the new system?
    Ms. Mason. Well, the Under Secretary for Benefits and I 
meet every 2 weeks, and we discuss specific challenges within 
the appeals structure and those planning. I also meet on a 
regular basis with OINT leadership, and we talk about the 
customer service requirements there. And it is the same thing, 
you know, with VHA. I meet with the PDUSH, the acting PDUSH as 
well.
    So I have oversight of all that through the Secretary and 
Acting Deputy Secretary, and then my job is to report out if 
there is any issues.
    But we do have a comprehensive plan. That is what you have 
seen in the 90-day reports that we have sent out.
    The board has had the lead on putting those together, but, 
again, it is a collaboration.
    We have to work in partnership, and we have to take care of 
all our customers across the organization in order to deliver 
results to the veterans.
    Mrs. Radewagen. Thank you, Mr. Chairman. I yield back.
    The Chairman. I thank the gentlelady for yielding.
    Ms. Esty, you are recognized for 5 minutes.
    Ms. Esty. Thank you, Mr. Chairman.
    I would like to raise the question the VSOs raised with me. 
They have raised concerns, the new IT system, the Caseflow 
Queue, is not fully ready for implementation. Specifically they 
have raised concerns that they are unable to view legacy cases 
through Caseflow.
    Can you provide a specific date by which the VSOs will have 
access to legacy cases via Caseflow?
    Ms. Mason. Currently, we are actually testing the 
collocated VSOs at the board. They do have access at the board 
right now. We just rolled that out on a limited basis. We are 
testing that. That is part of our phase-in.
    As we go forward into January 2019 and full delivery in 
February, we expect to broaden that. That will be more of a 
phased-in process with Caseflow, because there are procedures 
that the VSOs have to go through to meet those access 
requirements that are Department requirements.
    But we are already working, and they do have access in the 
program now.
    Ms. Esty. Well, thank you, because I know that is very 
important in our effort to really comprehensively address 
issues. If they cannot see--the VSOs who are on the front line 
are unable to see the legacy claims, then we are not really 
getting the benefit--the promised benefits of this IT 
innovation.
    The next question I wanted to address was one that the 
Chairman referenced at the very beginning.
    We think it is very important to have these goals and these 
timelines, but we have seen happen with other VA ambitious 
programs, that they have rolled out in an effort to meet a 
timeline and have, thereby, lost the trust of the veterans we 
are here to serve.
    Have you considered, given the 117 items, I believe, Ms. 
Curda, intended that need to be completed, and some of them may 
be very small? But 117 items between January 1 and February 14 
is a lot. And there will be a new Congress and lots of 
questions.
    Have you considered delaying that in order to be certain 
you have done the beta testing, you are prepared to do the 
rollout fully so that we do not lose the goodwill we have been 
all attempting to regain from veterans?
    Mr. Byrne. That is a very fair question, ma'am. And I can 
assure you there has been some robust discussion, certainly 
over the last a couple of weeks about implementation of various 
programs, and this one in particular. This is one that I can 
tell you that the Secretary and I have a lot of confidence in 
the implementation being met on time. The regulations, we don't 
completely control that process. It is being evaluated right 
now. So that would be the holdup.
    From an IT perspective, my understanding is we are much, 
much further--in fact, we are implementing it. My 
understanding, we are driving that car right now, and that is 
why, from a layman's perspective, the Secretary and I have 
confidence that we are going to be able to implement this on 
time.
    The caveat would be the regulations, but we have every 
indication that that is going to be on time as well.
    Ms. Esty. Thank you. You mentioned on BEAAM that we have 
only had 30 cases go through right now. And, Mr. Byrne, you 
indicated that that would be qualitative feedback, and yet, for 
the process to fully run out, you are moving from about 900 
cases, of which only 30 have gone through.
    What assurance do you have you are going to be in a 
position again in less than 2--in about 2 months to be able to 
have this fully functioning, the BEAAM portion fully 
functioning so you understand how those cases go through and 
are ready to implement them across the board?
    Mr. Byrne. So I will touch on that lightly, and then maybe 
ask Chairman Mason to help me out on that.
    BEAAM, as I understand it, was a very detailed interview 
feedback loop process with our veterans to ensure we were 
delivering to them the control and choice that they have been 
asking for from the veterans, from the VSOs, and from--with 
internal.
    As far as the actual implementation, I think those were a 
little bit apples and oranges, right? The implementation is 
about the regulations being available on time and about having 
the IT solution performing. And we have a pretty high degree of 
confidence. And I understand we maybe all be a little gun shy 
about actual execution. But in this case, there is a pretty 
high degree--there is a high degree of confidence that we will 
be able to execute as predicted in February.
    Ms. Esty. Well, I guess to be more precise. Whether you 
have been able to incorporate that qualitative detailed 
feedback from 30 cases, whether you feel that is sufficiently 
broad to incorporate it and have it ready to go in that as 
far--
    Ms. Mason. Ma'am, we have incorporated--thank you. We have 
incorporated that feedback already in our form letters and, 
actually, the NOD form for the board specifically. And as far 
as--so that BEAAM was enough for us to get that initial 
information.
    But then, we also had the RAMP program running a VBA as 
well as what the board took over. And that did give us--
continue to give us information on top of the VEO surveys.
    Ms. Esty. Thank you.
    The Chairman. I thank the gentlelady for yielding.
    Mr. Poliquin, you are recognized for 5 minutes.
    Mr. Poliquin. Thank you very much, Mr. Chairman. I 
appreciate it. And I appreciate the great bipartisan work over 
the last a couple of years on this Committee.
    I represent the rural part of the State of Maine. Now, some 
people think that all of Maine is rural, but that is not true. 
And health care closer at home is really a critical issue for 
our veterans up in rural Maine. And I am delighted that all 
this work has been done such that our veterans now--the law of 
the land can get their health care closer to home.
    That initiative actually started with a pilot program, Mr. 
Chairman. Maine was one of five places in the country up in 
Caribou, Maine, where the ARCH program started. And it was 
rolled out nationally. And now we are here with these nice 
folks before us talking about this problem we have had for a 
number of years with the appeals backlog. And you had had a 
couple examples of the pilot programs to roll this out and see 
would it work.
    So I would like to ask you, Mr. Byrne, and you can delegate 
that to anybody else that is beside you, if that is more 
effective. But tell us, what have you learned in your two pilot 
programs, just like we have learned up in northern Maine, the 
pilot program that led to the Mission Act and the Choice 
Program here that has been rolled out nationally. What have you 
learned that you can learn--that you can share with us such 
that when you roll this out big time across the system, you 
will have a better success rate?
    If I may, Ms. Mason, be as specific as you can, please.
    Ms. Mason. Okay. Sure.
    I think I am going to start, and I am going to then 
delegate it to Mr. McLenachen, because we run two pieces of 
that.
    Really, what the board has learned primarily is how 
important that veteran feedback is and to listen to our 
stakeholders, because they have had some very--
    Mr. Poliquin. And do you have a way to get that feedback 
very user-friendly for our veterans such that they can log on, 
however they do it, so they can get back to you very quickly, 
very easily, so you can assess that?
    Ms. Mason. Yes. Actually, with the new VA experience 
customer surveys, we can receive that feedback immediately.
    Mr. Poliquin. And how about folks that live in rural Maine 
that don't have access to the internet? How do you do that?
    Ms. Mason. I think they can do surveys both electronically 
and via mail. I would have to check on that one though, sir.
    Mr. Poliquin. That would be great if you can get back to me 
on that.
    Ms. Mason. So I am going to hand the rest of that answer 
over to Mr. McLenachen, because I know he has more on that.
    Mr. Poliquin. Yes, ma'am.
    Mr. McLenachen. Sure.
    So RAMP really helped us, because we have actually 
received--then this goes back to the previous question--34--we 
have actually done 34,000 decisions in the RAMP program. So it 
wasn't just the feedback we were getting from the small scale 
BEAAM program, but it was all of those decisions that we were 
making. So we were getting feedback from representatives of 
veterans, from veterans, from our own employees.
    Mr. Poliquin. And what have you learned that you can share 
with us?
    Mr. McLenachen. Sure.
    We have learned how to improve the procedures that we are 
launching permanently next in February.
    Mr. Poliquin. Be specific. Give me an example, please.
    Mr. McLenachen. Sure.
    A higher-level reviewer has to do a--in some cases, an 
informal conference with the veteran. We received a lot of 
feedback about how to make that process better and improve the 
scheduling of those. There is a lot of those type of--
    Mr. Poliquin. Right now, just on average, sir, how much 
time in the legacy system currently today, if a veteran has an 
appeal because he has lost hearing and he gets back the 
decision from you nice folks that it is not what he expects it 
to be or what it should be, how long does it now take to go 
through that process, on average?
    Mr. McLenachen. On average, 3 to 7 years.
    Mr. Poliquin. 3 to 7 years.
    How long do you think it will take with this new system 
that you folks are implementing that we have given you a lot of 
money to do?
    Mr. McLenachen. It is designed for early resolution. So an 
average of 125 days in each of the two VBA lanes. And then at 
the board, as Chairman Mason has said, the fastest opportunity 
there is an average of 1 year.
    Mr. Poliquin. Okay. So you expect to go from--anywhere from 
3 to 7 years to roughly 4 months to 1 year.
    God bless you. We are all behind you. We hope you do it. 
Our veterans deserve this.
    Mr. McLenachen. Right now we are processing RAMP claims in 
an average of about 120 days.
    Mr. Poliquin. Okay. Okay. How are you folks getting the 
VSOs involved? Because so many of our veterans on the ground 
touch our veteran service organizations on a regular basis. How 
are you bringing them into the fold such that they can help you 
roll this out effectively, get the word out, and keep our 
veterans well informed? How are you doing that?
    Mr. McLenachen. So this goes back to the Chairman's opening 
statement. Take you back to March 2016. We started this by 
getting all stakeholders in the room together. That is how we 
did this.
    Mr. Poliquin. Okay. And are they doing their job to help us 
with this?
    Mr. McLenachen. Absolutely. They have been with us every 
step of the way to include promoting RAMP and everything.
    Mr. Poliquin. Thank you.
    Mr. Byrne, I am going to ask my last question quickly here.
    You folks have mentioned hiring a bunch of people to make 
sure this works smoothly, and that is all great. I like to 
remind you, you have 285,000--excuse me. I think it is 385,000 
people at the Veterans Administration.
    Can you find any people internally to do this, so we don't 
have to spend taxpayer money to go outside and do this all over 
again? Were you able to do that?
    Mr. Byrne. To a certain degree, I think we were.
    Mr. Poliquin. How many of the people that you had to hire 
for this project came from the inside?
    Mr. Byrne. Can I ask Chairman Mason for that specific--?
    Mr. Poliquin. Yeah. Of course.
    Ms. Mason. We looked at offering opportunities to all our 
employees. But we are going to have to take that as a do-out 
and get to you, sir. I don't know exactly how many internal 
employees.
    Mr. Poliquin. Okay. So you have two things you are going to 
get back to me with, right?
    Ms. Mason. Yes.
    Mr. Poliquin. Great.
    Thank you very much. I yield back my time. Thank you.
    Good luck, everybody.
    The Chairman. There is a New York minute, and then there is 
a Maine minute, and those are different. I now yield to Mr. 
Correa.
    Mr. Correa. Thank you, Mr. Chairman.
    To the panel, the application, the implementation of the 
Appeals Modernization Act, how are you including the VSOs in 
that process?
    Mr. Byrne. So I am just going to touch it briefly.
    The VSOs were part of the ground floor in coming up with 
control and choice for the veterans. They were a driving factor 
in this. And we continue to have feedback with them in this 
process. And their service representatives are also a key part 
of--
    Mr. Correa. Can you describe how you are actually getting 
feedback and implementing that feedback?
    Mr. Byrne. That I would have kick over to the Chairman, 
sir.
    Mr. Correa. Sure.
    Ms. Mason. We have regular meetings, sir. The Secretary has 
regular meetings and receives feedback. The Chairman, the USB. 
We sometimes do joint meetings with VBA. But we are interacting 
with our VSOs on a regular basis.
    At the board, the board has co-located VSOs that actually 
sit with us that handle the cases. And we meet with them on a 
regular basis as well.
    So we are constantly taking feedback and constantly taking 
the pulse from our VSOs.
    Mr. Correa. Moving forward, do you see that to continue to 
be the case?
    Ms. Mason. Absolutely. We can't go forward without them.
    Mr. Correa. Any VSOs here today?
    Ms. Mason. Yes.
    Mr. Correa. Yes?
    Are we okay? Satisfaction? Yes? No? Good?
    I can't read sign language. Are we okay?
    Thumbs up. Thank you very much.
    Mr. Chair, I yield.
    The Chairman. I thank the gentleman for yielding.
    Mr. Higgins, you are recognized for 5 minutes.
    Mr. Higgins. Thank you, Mr. Chairman. Thank you, ladies and 
gentlemen for your service to your country. Mr. McLenachen, 
thank you for your service to your country, sir. I understand 
you are an Army veteran.
    I have constant communications with the veterans that I 
serve in south Louisiana. And the primary complaint regarding 
the appeals process out of New Orleans, you are looking at 
appeals from 2014 and 2015, certainly hundreds of backlog 
appeals cases. In most of the hearings, there is a requirement 
for the veteran to attend a hearing in New Orleans. These guys 
have transportation problems, man. They have deteriorating 
medical conditions, and in some cases, mental challenges, 
certainly financial and transportation challenges. Their 
hearing dates gets moved and shifted. And it is hard enough for 
them to get to their CBOC or their VA medical facility. 
Wherein, we have invested tremendous amounts of the people's 
treasure in order to completely modernize these facilities. In 
my district, I have two brand new CBOCs. They are beautiful, 
incredible state-of-the-art technology.
    What I don't understand, as a veteran myself, why a veteran 
would be required to drive 200, 250 miles to a hearing when it 
is hard enough for him to get 20 miles to a CBOC or his VA 
medical facility, yet we have invested incredible amounts of 
treasure in these facilities to make them telecapable. And the 
decisions made about their appeals is primarily medical in 
nature.
    So I am told that the VA states that their IT systems in 
the appeals arena does not communicate well with their IT 
systems in the medical arena. And it is just unacceptable to me 
as a veteran and as a Congressman.
    Would you please address that, sir, as a veteran yourself?
    Mr. McLenachen. Yes, sir. And thank you.
    Chairman Mason is actually doing a lot of work in this 
area. The hearings that you are referring to are board hearings 
that the board judges handle. We do the scheduling for those 
right now. But she is doing--
    Mr. Higgins. They are legal questions. I agree. But they 
are based upon medical conditions, are they not, 100 percent of 
the time?
    Mr. McLenachen. That is generally correct, yes, based on 
medical exams that are done in the initial decision process. 
And then if there is an appeal to the board, one of the things 
the board looks at is do we fulfill our duty to assist the 
veteran in developing their, which includes providing them a 
medical examination.
    Mr. Higgins. Thank you for that answer.
    I asked for--I asked generally is there a commitment--can 
we look for a commitment from the VA to integrate IT systems 
and to enhance the abilities of veterans to attend their 
hearings more locally at VA facilities, medical facilities, 
CBOCs, et cetera. Is that on the horizon? Can we look at that?
    Ms. Mason. Yes, sir, it is on the immediate horizon.
    Mr. Higgins. Thank you, ma'am. That is encouraging. I have 
questions I promised to get to.
    Secretary Byrne, I understand you also serve as a VA 
general--as the VA's general counsel?
    Mr. Byrne. Yes, sir.
    Mr. Higgins. Thank you for your service, sir. Commander, 
correct? You are Commander Byrne, correct?
    Mr. Byrne. I was lieutenant colonel in the Marine Corps.
    Mr. Higgins. Roger that. Thank you for your service.
    What is the current status of regulatory changes you will 
need to implement the appeals reform?
    Mr. Byrne. The current regulatory process involves another 
component of the executive branch, and that is where it is 
under review right now. And we have expectations that it is 
going to come out on time and be published sufficiently before 
the February 14 deadline. But we are tracking it. And if we 
have any indications that it is going to come out early or 
late, we will certainly let this body know.
    Mr. Higgins. Your optimism, your tone has been encouraging. 
It is uplifting to us to hear that sort of can-do attitude. We 
recognize what you guys are dealing with is incredibly 
difficult.
    I have a follow-up question for you, sir. Will the 
Secretary still certify next month if the final rule is not yet 
published?
    Mr. Byrne. Yes, sir, he will certify.
    Mr. Higgins. Will the Secretary still certify next month if 
the final rule is not yet published?
    Mr. Byrne. Correct.
    Mr. Higgins. I take that as a yes.
    Mr. Byrne. Yes, sir.
    Mr. Higgins. And finally, even if the final regulations are 
completed prior to implementation, how can you ensure the VA 
disseminates that information and conducts training for staff 
on the new regulations and forms, which is a nightmare in the 
VA that, you know, getting your head wrapped around as these 
new forms are very complex prior to the effective date of the 
law?
    Mr. Byrne. Sir, I am going to kick this over, but I hope 
the training is already underway. I hope that is the answer we 
are going to hear.
    Ms. Mason. That is the answer you are going to hear. That 
training has already been underway for some time at the board, 
and I believe VBA. And I will let Mr. McLenachen take that.
    But the board has ongoing training on a regular basis for 
both the new law as well as our IT changes as well as the 
forms, and we are also working with our VSOs in those areas as 
well.
    Mr. Higgins. Thank you, madam, for your response.
    Mr. Chairman, I yield.
    The Chairman. I thank the gentleman for yielding.
    Mr. Takano, you are recognized.
    Mr. Takano. Thank you, Mr. Chairman.
    Secretary Byrne and Chairman Mason, regarding legacy 
claims, could you discuss how we won't leave these people 
behind? We are talking about the legacy--you understand what I 
mean by legacy claims, right?
    Go ahead, Mr. Secretary.
    Mr. Byrne. I believe Chairman Mason is going to tell you 
that legacy--that we are going to balance the resources that we 
have. But processing legacy claims is a priority to reduce that 
backlog.
    Ms. Mason. That is correct, sir. The Department made a 
commitment in March of 2016 when we started this process that 
led to the Appeals Modernization Act passing that we would 
prioritize the legacy cases. And we are keeping that 
commitment. We--at the board, and, I believe, at VBA, I can't 
speak for Mr. McLenachen on this one, other than it is my 
understanding that they are also prioritizing those.
    At the board specifically, the Caseflow Queue program is 
already in user testing. The algorithm program, which has a--
was built for us by Digital Services has a prioritization piece 
in it that prioritizes those legacy cases over the AMA. But the 
direct docket is the next level. So Mr. McLenachen--
    Mr. Takano. Mr. McLenachen.
    Mr. McLenachen. Yes. So we know what resources it is going 
to take to complete our legacy appeals as well as work the new 
system. We are separately allocating resources to each of 
those, and we will adjust as necessary when we go forward.
    Mr. Takano. Okay. Well, to both of you and Chair Mason, 
have you made efforts to meet with the union during the 
discussion implementation of new regulations surrounding the 
Appeals Modernization Act?
    Ms. Mason. The union at the board, the union 
representative, we regularly meet with the union, the 
leadership team. It is not always me. It is sometimes my 
leadership team with my other duties.
    The union has been involved in our training process and is 
always a partner at the table to discuss how we are rolling 
those out. But there are management pieces that go to that that 
the management can make the decisions on. And we give the union 
the notification as required.
    Mr. Takano. Mr. McLenachen.
    Mr. McLenachen. The same answer. All the way back from when 
we implemented RAMP, all the way through to what we are doing 
today, we have kept the union apprised of what we are doing, 
yes.
    Mr. Takano. I mean, you would say it is fairly regular? 
Weekly? Monthly?
    Ms. Mason. It is usually monthly to quarterly depending on 
what the union request is at the board.
    Mr. Takano. Okay. Have you incorporated any of their 
suggestions from these quarterly or monthly meetings or the 
comments that the union submitted during the proposed 
rulemaking?
    Ms. Mason. Yes. We looked at all comments from our 
employees. Our employees all gave feedback on the process when 
we spoke with them. Specifically, I don't know that we used 
anything in the rulemaking on that, because that was an 
internal agency piece. But we did discuss what the comments 
were.
    Mr. Takano. Mr. McLenachen.
    Mr. McLenachen. Yes. So usually the union's concern is the 
impact of employees when we implement major initiatives like 
this. So, yes, we have fully advised them of that. They have 
told us of their concerns about implementation and tried to 
address those as best we could.
    Mr. Takano. What assurances are you giving the front-line 
employees that they will have adequate time to adjust to the 
new procedures and regulations as they are being implemented, 
and that they are not unfairly dinged during the 
implementation, and immediately thereafter?
    Ms. Mason. Well, at the board, we rolled out new production 
standards this October. We actually met with our union partners 
in August and September in preparation for appeals 
modernization. And part of that change was to measure--allow 
attorneys to measure their production on the number of issues 
they do per decision, which is exactly how we will report. We 
report both the number of decisions the board does as well as 
the number of issues under appeals modernization.
    And training--there is also a training piece that is part 
of our union agreement that they get a certain piece of time 
that doesn't count towards production and training. And I can't 
speak for--
    Mr. McLenachen. Same in VBA. When we implement something 
like this, usually there is an acclimation period for employees 
to get used to the new procedures.
    I just want to point out, though, the law does not change 
how--the entitlement to benefits and how we process those 
claims. It is really a process change rather than a changing 
the way that they are used to making decisions based on the 
entitlement that veterans have.
    Mr. Takano. But, nevertheless, you are representing to me 
that there is adequate time for the employees to adjust, as you 
say, acclimate--
    Mr. McLenachen. Yes, that is always the case.
    Mr. Takano [continued].--to the new regulatory and 
procedural environment.
    I am not going to take the Maine minute. I am just going to 
yield back.
    The Chairman. I thank the gentleman for yielding.
    I am going to take a point of personal privilege here and 
thank some Members of this Committee before everybody gets 
gone.
    Mike Coffman, a classmate of mine, veteran of both Marine 
Corps and the U.S. Army. He made one good choice. That would be 
the U.S. Army, with all due deference to Colonel Byrne. Mike, 
thank you for your service all these years on the Committee and 
the things you have done for the folks in Denver with the 
Denver VA. You stayed on that. Thank you so much for that.
    And, Ms. Esty, you will be leaving the Congress this point. 
It has been a pleasure working with you. You have had very, 
very positive things and intuitive things that you have done 
for not only constituents in your district, but across the 
entire country. So thank you for that.
    And I tried to get, before Mr. O'Rourke escaped, to thank 
him for his work on the Committee. He has been terrific. He 
certainly has a passion for the people in El Paso and the 
people he represents. And I want to thank all three of you who 
won't be here next term to work on veterans' issues. I know 
what is near and dear to your heart. Me, personally, thank each 
and every one of you.
    General Bergman, I now yield 5 minutes.
    Mr. Bergman. It is okay to be a Marine, though, right, even 
though, you know, we like to think that Mr. Coffman succeeded 
so successfully in the Army because of his basic training in 
the Corps.
    Thank you, everyone.
    We will keep this to the point at hand.
    But speaking of veterans, you know, in the first district 
of Michigan, Michigan as a State has a very high percentage of 
men and women who have served and are veterans. And in the 
first district of Michigan, we have almost double the 
percentage of veterans, as do other districts in Michigan. So, 
you know, it has been an honor these first 2 years to represent 
the veterans--all the veterans in the district. And we are not 
getting any younger. And the point of that is, has there been 
any consideration in the appeals process to prioritize older 
veterans because of where they are in the time in their life?
    Ms. Mason. Oh, actually, do you want me to take--actually, 
sir, thank you for the question. It is a good point.
    Actually, the board does have an advance on the docket 
process already in place. The veterans is 75 or older. It is 
automatically flagged to go into that bin, and we work those 
cases first. And in our new algorithm, the advance on the 
docket cases are in--all--those are all in the prioritization 
regardless of whether they are legacy or whether they are AMA.
    The advance on the docket also applies to veterans who have 
terminal health issues as well as financial issues. And this 
past year, on my own motion, I advanced cases on the docket for 
the hurricanes as well as the typhoon in the Mariana Islands. 
And we are releasing a statement, I believe, by the end of the 
week that will address the California fires and the Alaska 
earthquake.
    So we do actually advance cases for those veterans. And as 
veterans reach that age, it is an automatic flag.
    Mr. Bergman. Okay. Is there something they have to fill 
out? Or is it just automatically because of the information 
they provide, your ages and there it is automatically then put 
into the--
    Ms. Mason. For age, it is automatically flagged in our 
electronic system at the board.
    Mr. Bergman. Now, you know, communication is not what is 
said, it is what is heard. And understanding of words written 
may or may not translate into the veteran understanding when 
they receive a letter. And I received some interesting letters 
from government agencies addressing my senior status and 
different things that I have no clue what actually the point of 
the letter is. Okay? And I am not going to get into details. 
And I think even asking a couple of other folks, what does this 
mean? There was some head scratching going on.
    So I know the VA, I believe, has made an effort to make 
more understandable written communication so when that veteran 
receives it, they can actually understand what the point of the 
letter is.
    Would anyone care to give me an example of success in that?
    Mr. McLenachen. Yes. Actually, I am happy to point out that 
that is a priority for the Under Secretary. He is--actually has 
a program that he has running now where he has an individual 
leading a review of the letters that we use to do exactly that, 
make them more understandable.
    Mr. Bergman. So does that include--not to cut in.
    So does that include feedback? Because we talked about the 
feedback loop has been put in. Is that--does that include 
feedback? So if a--
    Mr. McLenachen. Yes.
    Mr. Bergman. You know, you get--so we can look at the 
success of a letter or success of phrases. Is that something 
that is visible to us as a Committee to see where the change 
has been made?
    Mr. McLenachen. Yes. And, in fact, the model that we use 
for appeals modernization is something we are trying to use 
further in the Department but, in particular, in VBA. Getting 
the input of veteran service organizations veterans, and 
getting their perspective on whether it really is 
understandable. And then even at the Department level, the 
Veterans Experience Office is very helpful and focused on that 
particular issue.
    Ms. Mason. We have survey results currently from the 
Veterans Experience Office, at least at the board level, that 
we get on a regular basis that tells us how the judges are 
communicating at hearings, how our decisions are being received 
by veterans in that communication piece. So we are looking at 
that regularly at the board.
    Mr. Bergman. It is one thing--and I know my time is coming 
short here. It is one thing to provide an opportunity for 
feedback. The second step, of course, is taking that feedback 
and truly evaluating it to then turn whatever it is you are 
trying to accomplish into a better document or a better 
communication.
    Thank you, and I yield back.
    The Chairman. I thank the gentleman for yielding.
    Chairman Arrington, you are recognized.
    Mr. Arrington. Thank you, Mr. Chairman.
    First, I want to associate myself with your commendation to 
our colleagues, Ms. Esty and Mr. Coffman. It has been a delight 
serving with you and wish you the very best, and Godspeed. And 
thank you all for your good work on the panel, and sounds like 
we are making some progress.
    The guy who held this seat that I served in three decades 
ago, his name is Kent Hance. He used to tell a story about a 
public schoolteacher in Dimmitt, Texas. It is a little town, 
like a lot of little towns in my district. Farming and ranching 
town. He had a public schoolteacher named Ms. Littlepage, and 
she taught accounting. And she kept it real simple. She said, 
in accounting you have money coming in, and you have money 
coming out. And if you have more money going out than you have 
coming in, you broke.
    And I want to apply Ms. Littlepage's principle of 
accounting to this discussion, because you have incoming cases, 
and then you have resolved, or outgoing, cases. And if you got 
more incoming cases than you got outgoing, you broke. The 
system is broke. And we cannot continue with the backlog of 
over 400,000. The whole point of this was to have a more timely 
resolution of these claims.
    So let me just go through the numbers, here make sure my 
Dimmitt/Plainview/West Texas math is working appropriately.
    The RAMP claims--let me just start there. The RAMP--and 
anybody can answer this who is the expert in RAMP, but it--RAMP 
deals with two of the three lanes, correct? And the 
anticipation of the pilot was that we would have more people, I 
think, that signed up for RAMP saying that they would go to 
those two lanes. I think it was like 16 percent versus 40 
percent. So not as many people signed up for the--or signed on, 
maybe, to the two lanes that RAMP is testing. Is that a fair 
statement?
    Mr. McLenachen. It is. We did not know what we were going 
to get. We are at about 18 percent right now opting in, and we 
have seen it go up every month that we have been running the 
program.
    Mr. Arrington. One might believe, in the case where you 
didn't get as many on the two lanes that RAMP is testing, that 
you would have more going into that third lane, which is the 
board appeals. Is that an accurate assumption, or fair 
assumption?
    Mr. McLenachen. That is possible, that we deliberately 
designed the RAMP program not to include that lane, because we 
don't just want to trade a long process that is broken now for 
those people going to the board. We wanted early resolution. 
And we are doing that quickly in those two VBA lanes.
    Mr. Arrington. So you have--in November 30, there were 
420,000 pending appeals. About 130 of those thousand appeals 
were with the board, Ms. Mason. And my understanding is that by 
2024, it will be 400,000 pending. I am reading--let's see here. 
The board projected the inventory of more than double between 
2017 to 2024 from 150,000 to around 400,000. Is that not 
accurate?
    Ms. Mason. I believe it is--what we are doing in that with 
that guesstimate was, and that was from more than a year ago, 
so that was before I became Chairman, so I am not exactly sure 
what--
    Mr. Arrington. Well, let's just say it is an approximate 
number. But 400,000. Here's my bigger point. You guys have had 
a better number in terms of resolutions at about 85,000 in 1 
year.
    Ms. Mason. Right.
    Mr. Arrington. But the incoming is 90-plus thousand, 
correct?
    Ms. Mason. Well, this past year we actually only received 
only about 69,000 in the door.
    Mr. Arrington. Do we expect it will be 90 every year?
    My understanding that that was a pretty good round average, 
or rolling average over the last several years, 90,000.
    Ms. Mason. You are correct, sir.
    Mr. Arrington. Okay. So if that continues, and this is just 
an anomaly this year of 60-something, then we will just always 
be in a deficit mode. And so you will never get enough to--you 
won't have the capacity to receive the incoming. I don't know 
what you are going to do with the legacy, as Mr. Takano 
mentioned it.
    What do you do with the backlog? Are we ever going to get 
at the backlog? Will we ever have the capacity not to just meet 
the demand, but exceed it? That is the only way we are going to 
get at that bigger legacy number of 400-plus thousand.
    I will just stop, because my time is expired. But if the 
Chairman would indulge me and allow them to answer that long 
question.
    Mr. McLenachen. Sir, excellent questions. I think the one 
factor that you are not considering is in February, we shut off 
the flow to the legacy process. So one other factor to consider 
is every year, we receive more than 160,000 new legacy appeals. 
That is what we have been receiving. So the fact that we are at 
now 420,000, we were at about 475,000, while we were receiving 
that constant flow of 160,000 new appeals every year, that is 
significant that we brought that number down. And when you shut 
the flow off in February, you will have no more going to 
legacy. And that is really the key that is missing in that 
discussion is--that is what the law does for us. It shuts the 
flow off to that broken system. And you are absolutely correct. 
It is broken.
    So just considering that factor, we believe that we, in 
VBA, will get through our legacy appeals in 2020, which is a 
vast improvement about--over what we were talking about a 
couple of years ago.
    The wildcard for the board is they get their appeals from 
us, so we resolve what we can first. Veterans choose to appeal 
to them. So the board is relying on what is flowing from us to 
them.
    In addition to that, we have flow back from the board, even 
though the board decided 85,000, which was great. Many of those 
are remands back to VBA, where we have to do more work. And 
that is kind of the key to what is broken in the current 
process. It is that constant churn back and forth between VBA 
and the board. The Committee's work shut that off in February, 
at least a good portion of it.
    Ms. Mason. And the other thing is, I want to go back to the 
stats you quoted. I don't believe those stats took into 
consideration the resources that Congress gave the board in 
fiscal year 2017 that allowed us to hire more people, and 
allowed us to increase our resources, which you saw the payout 
from--began to saw the payout from in fiscal year 2018 with 
those 85,000. And we are going to continue, so that is going to 
change what the estimate is. We are going to give you a new 
number. But I can't get there until I get to--it will be after 
February, but you will get a new number, sir.
    The Chairman. That was a Texas minute right there.
    Let's see.
    Mr. Takano, do you have any closing comments?
    Mr. Takano. Yes. Just briefly.
    Mr. Chairman, I thank all the witnesses for coming forward. 
And I have met with some of you in private. I am cautiously 
optimistic that the implementation will be successful. And that 
the work that was done by this Committee on a bipartisan basis 
to lay the groundwork for where you are, the work that my 
colleague, Ms. Esty, did as the Ranking Member and inheriting 
from Ranking Member Dina Titus, and the whole way in which the 
VSOs work together. And this Committee worked together, Mr. 
Chairman. This is a point of pride for me. And our small talk 
up here indicates that both of us have a cautiously good 
feeling about where this is going. I am happy to hear that IT, 
the work that you have done with Digital Services, seems to 
have borne good fruit.
    So I do want to say my farewells to Mr. Coffman. I do 
admire the work that you have done, sir. Under my presumptive 
chairmanship, you can guarantee that Denver will not be 
forgotten, and that we will--and we care about all the veterans 
in all the communities, and we are going to make sure that all 
these medical centers all get up to snuff.
    Ms. Esty, what a pleasure it has been to be your colleague. 
And it was a great note of sadness that I see you are 
departing. You are enormously talented. But I know that you are 
going to be contributing to our country and our Nation, and you 
will continue to contribute to your community.
    And, of course, Mr. O'Rourke, he is not here, but enough 
said about him. There is a lot already being said about him, 
and I have a feeling we haven't heard the last of him here.
    And what a special sacred bipartisan space this is, Mr. 
Chairman. I know we are going to continue this relationship 
that we have. And I will do my utmost to preserve the 
traditions of this Committee, so thank you.
    Mr. Arrington. Will the gentleman yield?
    Mr. Takano. I will yield, yes.
    Mr. Arrington. I am excited and looking forward to the new 
leadership here. And my understanding is that I am looking at 
one of the new leaders of this Committee. But I want to say 
something about the current leader as we wrap this session up.
    This is, for many of us on the Committee, our first term in 
Congress. And I did not anticipate I would have the privilege 
of serving on this Committee. And I certainly didn't fully 
appreciate how productive this Committee would be. And I think 
a lot of that is the bipartisan nature. But it has to be 
stewarded by the captain of the ship. I mean, it trickles down 
from the top. And the leader of this Committee sets the tone.
    And I just want to say, Mr. Chairman, and if Ranking Member 
Walz were here, I would commend him as well. But, Chairman, 
thank you for your tremendous leadership for all of us, to lead 
us through one of the most--it would have to be. I don't know 
the numbers. But to pass 80 veteran-related bills in the House, 
virtually all of them bipartisan coming out of this Committee. 
And to have almost 30 veteran-related reforms, major 
initiatives like the Mission Act and like the new Forever GI 
bill, et cetera, et cetera, like this appeals process, I can't 
find another space and spot in place in the United States 
Congress that has been more productive and more ably led, and 
led in a way that reflects not just well on your colleagues, 
but on the character of the men and women who wore the uniform 
who we are trying to serve.
    So you set a great example for me, and I think for my 
freshman class and all of us on this Committee. Thank you for 
your leadership and thank you for your service, not just to our 
veterans, but to our entire Nation over this last 2 years in 
the 115th Congress.
    The Chairman. Thank you very much.
    I appreciate your kind words. I do, Jodey. Thanks very much 
for that. It is much appreciated. And, again, you have heard me 
thank the Committee profusely for what they have done.
    I also want to thank the people who are here today. You all 
have done a great job. And we are excited about doing this. 
Because I can promise you, every Member up here, probably the 
most things that--individual cases we work on at home are 
veterans' cases. And we have one, two, maybe more people on our 
staffs that work on those, and most of them are appeals or 
something related to the VA.
    And I want to thank you all for getting this up and ready 
to run. I think it is going to work, and I think the RAMP 
program really did give us a good trial run. And, again, as I 
said at the opening, I have heard any number of people come up 
and say, Hey, Doc, this RAMP program really got me my case 
adjudicated very rapidly.
    Mr. Higgins, I want to thank you. I think it is a great 
idea with teleconference. And I think that makes absolute 
sense. If you got the capacity in the CBOC, why you couldn't 
just schedule that with a veteran right there in their 
hometown. That makes absolute sense, so they don't have to 
travel long distances. It is much more difficult for them to 
travel. Many other good ideas we flushed out today. And I look 
forward to them.
    And one of the things I think I learned with this bill was 
to continue to bring the stakeholders back in every few months 
and go over where we are. That maybe was a mistake in some of 
the bills that we didn't do. We are doing that with mission. If 
we are here next week, we will be doing a mission hearing next 
week, next Wednesday afternoon.
    So I think we have learned a lot from you all. And kudos to 
you all with the good work you have done. I appreciate it, and 
we look forward to going live next year.
    Mr. Coffman.
    Mr. Coffman.--was very important. But I also think, having 
been a retired physician, was extremely important in terms of 
bringing that knowledge and sharing that knowledge and your 
experiences with this Committee I think is very important.
    And, of course, we all know the acronym for Army stands for 
`Ain't Ready for the Marines Yet', but we won't go there.
    The Chairman. I thank the gentleman. I won't yield any more 
time to that gentlemen.
    I was about to dismiss us before we got done here.
    No further questions. Thank you all for being here.
    I ask unanimous consent that the written statements 
provided for the record be placed into the hearing record. 
Without objection, so ordered. And also ask unanimous consent 
that all Members have 5 legislative days in which to revise and 
extend their remarks and include extraneous material. Hearing 
no objections, the hearing is adjourned.

    [Whereupon, at 11:40 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

                   Prepared Statement of James Byrne
    Good morning Chairman Roe, Ranking Member Walz, and Members of the 
Committee. Thank you for inviting us to provide an update on VA's 
progress implementing the Veterans Appeals Improvement and 
Modernization Act of 2017 (AMA). Joining me today are Ms. Cheryl Mason, 
Chairman of the Board of Veterans Appeals; Mr. David R. McLenachen, 
Director of the Appeals Management Office, Veterans Benefits 
Administration (VBA); and Mr. Lloyd Thrower, Deputy Chief Information 
Officer, Account Manager for Benefits, Office of Information and 
Technology (OIT). We hope that this hearing will add to the long line 
of regular updates and meetings previously had on this topic.
    AMA, enacted on August 23, 2017, is the most significant statutory 
change affecting VA appeals in decades, and I wish to thank the 
Committee for its work on the much-needed comprehensive legislation 
that is transforming an archaic process into one that makes sense for 
Veterans and their families, their advocates, VA, stakeholders, and 
taxpayers. I appreciate the opportunity to discuss the progress of 
implementation and how the Department will timely address new decision 
review requests and legacy appeals.
    VA remains deeply committed to helping Veterans receive the 
benefits that they have earned, and I am pleased to report that Appeals 
Modernization remains on track for implementation in February 2019.
    During the past few months, VA made significant strides towards 
implementing the new decision review system. VA initiated its 
rulemaking to implement the law by publishing a proposed rule in the 
Federal Register on August 10, 2018, and the public notice and comment 
period ended on October 9, 2018. VA received 29 comments from the 
public on the proposed rule, which are available for review by the 
public on regulations.gov and will be addressed in the publication of 
the final rule. VA received comments from Veterans Service 
Organizations, the private bar, legal clinics, and individuals. These 
comments were supportive and included a desire that VA decision notices 
should provide enough information for a claimant to make a well-
informed decision about next steps in their decision review or appeal. 
VA has made changes to the rule, such as clarifying terms and 
definitions, that will be described in the published final rule. VA is 
working collaboratively with the Office of Management and Budget to 
finalize the regulations and prepare them for publication in the 
Federal Register.
    The Department is focused on additional aspects of implementation, 
to include developing and updating information technology (IT) systems 
for the new claims and appeals process, conducting programs to test 
assumptions regarding the new system, developing and refining 
meaningful performance metrics to track progress, providing training 
across VA for employees, and collaborating in the implementation 
process with stakeholders - Veterans Service Organizations (VSO), 
Veteran advocates, Congressional stakeholders, and the Government 
Accountability Office, among others.
    VA's enterprise-wide IT modernization efforts that began prior to 
the current statutory changes were re-focused to build out 
functionality necessary to support implementation of the AMA. VA's IT 
solution for implementing the AMA is a collaboration within OIT between 
teams supporting the Veterans Benefits Management System, VBA primary 
claims processing and tracking system, the Veterans Appeals Control and 
Locator System (VACOLS), and Caseflow, the Board's new case management 
and workflow system. These two teams have been working collaboratively, 
using agile practices, including a robust requirements development 
process, fully integrating their activities over the past year to 
deliver the necessary solution. VA anticipates meeting all 
implementation milestones and deliverables, which are detailed in the 
integrated master schedule included in the periodic updates to the 
Comprehensive Plan for Processing Legacy Appeals and Implementing the 
Modernized Appeals System that VA submits to Congress and GAO. These 
periodic reports are available to the public on VA's website. The most 
recent report was submitted last month.
    AMA authorized VA to create programs to test assumptions in the 
implementation of the new claims and appeals system. VA launched the 
Rapid Appeals Modernization Program (RAMP) on November 1, 2017, giving 
eligible Veterans with disability compensation appeals the voluntary 
option to have their decisions reviewed in the Higher-Level or 
Supplemental Claim Lanes outlined in AMA. RAMP gives Veterans early 
access to the benefits of the new system and helps to lower the number 
of appeals pending in the legacy system during transition. Overall, 
RAMP has been successful, and has provided numerous Veterans early 
access to the modernized appeals system. As of November 28, 2018, RAMP 
helped transition 74,399 appeals from the legacy inventory of 398,674. 
VBA has completed nearly 32,000 Higher-Level Review and Supplemental 
Claim decisions under RAMP, with an average processing time of 119 
days, resulting in the payment of more than $131 million in retroactive 
disability compensation benefits to Veterans in the program. VBA has 
learned valuable lessons from RAMP and has found that using enhanced 
workload distribution systems like the National Work Queue (NWQ) can 
have a significant impact on RAMP station productivity. Accordingly, on 
November 13, 2018, VBA began using NWQ to assign, prioritize, and 
distribute RAMP claims. VBA continues to focus on resolving legacy 
appeals for Veterans. At the end of September, despite receiving more 
than 160,000 new appeals in fiscal year (FY) 2018, the compensation and 
pension appeals inventory had decreased by over 14 percent, and appeals 
production was over 12.5 percent above target.
    The Board of Veterans' Appeals (the Board) demonstrated its 
commitment to reducing legacy appeals by deciding a record number of 
85,288 appeals in FY 2018, a historic high for any fiscal year. The 
Board's annual production goal for FY 2019 is set at 90,050 decisions, 
an increase of approximately 5.5 percent above FY 2018.
    The Board is continuing to test programs targeted at preparing the 
organization for AMA implementation. On October 1, 2018, the Board 
began adjudicating its first RAMP appeals in a phased-in test of 
processes and technology. This allows the Board to identify and address 
potential issues and risks relating to implementation of the new 
framework, and RAMP is providing VA with additional information it is 
using to update and change Standard Operating Procedures. As of 
November 19, 2018, the Board had received 823 appeals of RAMP 
decisions. More than half of the Veterans who elected to file a RAMP 
appeal to the Board selected the hearing lane, suggesting that the 
opportunity for a hearing with a Veterans Law Judge will continue to be 
a valued aspect of the Board appeal process following implementation of 
the new appeals system.
    The Board's Early Applicability of Appeals Modernization (BEAAM) is 
a small-scale research program designed to provide valuable qualitative 
feedback and insight that will inform future implementation plans. The 
research team conducted more than 70 hours of interviews, providing 
valuable insight into how Veterans and representatives would make 
choices under the new framework and allowing VA to refine and update 
implementation activities to improve Veteran experiences. The Board has 
a final assessment of its research program available upon request.
    In addition to identifying and addressing potential risks and 
issues through test programs, the Board collaborated with the Veterans 
Experience Office, using the Medallia tool/database, to conduct surveys 
of Veterans who have an active appeal at the Board, including both 
legacy and RAMP appeals. Data collected such as age, gender and 
geographic location can be reviewed in the aggregate to assist with 
program improvement and implementation of the new system by informing 
the Board's policies and procedures.
    To ensure smooth implementation, the Board launched an aggressive 
workforce plan to recruit, hire, and train new employees in FY 2018. 
The Board on-boarded approximately 242 individuals, including 
approximately 20 administrative personnel, as well as 217 attorneys/ 
law clerks hired during the last quarter of FY 2018.
    The Board anticipates that initially a minimum of 10 percent of 
resources associated with attorney and Veterans Law Judge workflow will 
be required to implement and administer the new appeals system. This 
means that the Board is estimating that roughly 10 percent of staff 
time will be spent completing tasks related to AMA. The Board has a 
finite pool of attorneys and judges to work the cases. The Board will 
not allocate resources dedicated solely to the legacy or new appeals 
processes. The reason for this is that the legacy caseload will not 
immediately diminish once the new appeals system begins. This 
percentage will be adjusted as dictated by priorities and inventory, 
and will preserve equitable processing of appeals on each docket while 
employing the workload efficiently across the fixed Judge/Attorney 
workforce.
    VBA's compensation and pension appeals program is presently 
supported by 1,495 FTEs. VBA received an additional 605 FTEs in its FY 
2019 Budget to process legacy appeals and decision reviews in the 
modernized process. As of October 1, 2018, to best maximize its 
resources and enable efficiencies, VBA centralized these additional 
assets to conduct higher-level reviews at two Decision Review Operation 
Centers (DROC). VBA will convert the current Appeals Resource Center in 
Washington, DC, into a third DROC using existing assets.
    The Board and VBA collaborated on training and outreach activities 
for employees and stakeholders, to include for VSOs and Congressional 
staff. The Board provides large-scale trainings on the new appeals 
system for all Board staff, which reinforce the differences between the 
legacy and new systems. Regular training activities will continue at 
the Board through full implementation in February 2019.
    Since the implementation of RAMP in November 2017, VBA has 
continuously provided updated training for employees directly involved 
in public contact teams, intake processing centers, and appeals teams 
regarding RAMP and the future of the decision review process. VBA 
develops and delivers AMA training to its employees, which provide a 
comprehensive overview of full implementation and a greater awareness 
of RAMP.
    VA is grateful to all stakeholders for their continued 
contributions of time, energy, and expertise in this effort. VA is 
working strategically to increase awareness of AMA and RAMP through a 
combination of direct outreach and increased communications products. 
Beyond VA's routine local outreach, the Department engages with Veteran 
stakeholders to disseminate information through national conferences 
and training events. Through coordination and collaboration, senior 
leadership from the Board and VBA have provided approximately 60 such 
outreach sessions in FY 2018, with several more scheduled throughout 
this current fiscal year.
    Mr. Chairman, this concludes my statement. Thank you for the 
opportunity to appear before you today. We would be pleased to respond 
to any questions that you, or other Members, may have.

                                 <F-dash>
                Prepared Statement of Elizabeth H. Curda
    Chairman Roe, Ranking Member Walz, and Members of the Committee:

VA DISABILITY BENEFITS

Planning Gaps Could Impede Readiness for Successful Appeals 
    Implementation

    I appreciate the opportunity today to provide an update on the 
Department of Veterans Affairs' (VA) plans for implementing a new 
disability appeals process while still attending to appeals under the 
current, or legacy, process.
    VA provides cash benefits to veterans for disabling conditions 
incurred in or aggravated by military service, paying about $72 billion 
to about 4.5 million veterans in fiscal year 2017. If veterans are 
dissatisfied with VA's initial decision they can appeal-first to the 
Veterans Benefits Administration (VBA) and then, if not satisfied 
there, to the Board of Veterans' Appeals (Board), a separate agency 
within VA. For appeals resolved in fiscal year 2017, veterans waited an 
average of approximately 3 years from the date they initiated their 
appeal to resolution by either VBA or the Board-and an average of 7 
years for appeals resolved by the Board. Due in part to the challenges 
VA faces managing large workloads and deciding disability claims and 
appeals in a timely manner, in 2003 we designated VA disability 
compensation, along with other federal disability programs, as one of 
the government's highest risk areas. \1\
---------------------------------------------------------------------------
    \1\ Improving and modernizing federal disability programs is an 
area that we continue to monitor on our high-risk list. See GAO, High-
Risk Series: Progress on Many High Risk Areas, While Substantial 
Efforts Needed on Others, GAO 17 317 (Washington, D.C.: Feb. 15, 2017).
---------------------------------------------------------------------------
    The Veterans Appeals Improvement and Modernization Act of 2017 
(Act) makes changes to VA's disability appeals process by replacing it 
with one that gives veterans various options either for further review 
by VBA or to bypass VBA and appeal directly to the Board. \2\ These 
changes may generally take effect no earlier than February 2019, which 
is about 18 months from the date of enactment. The Act also built in 
flexibility for VA regarding this time frame by stating that most of 
these changes will not take effect until 30 days after the Secretary of 
Veterans Affairs certifies that the agency is prepared to carry out 
timely processing of appeals under the new and legacy appeals process, 
in addition to giving VA the option of phasing in implementation of the 
new process at that time. \3\
---------------------------------------------------------------------------
    \2\ Pub. L. No. 115-55, Sec.  2, 131 Stat. 1105, 1105.
    \3\ Under the Act, the legal changes to VA's appeals process will 
generally take effect on or after the later of (1) 540 days 
(approximately 18 months) after enactment, and (2) 30 days after the 
Secretary of Veterans Affairs submits to the appropriate Committees of 
Congress (i) a certification that VA has the resources, personnel, 
office space, procedures, and IT required to carry out the new appeals 
system and to timely address appeals under the new appeals system as 
well as pending legacy appeals, and (ii) a summary of the expected 
performance outcomes used in making the certification with respect to 
legacy claims and a comparison of these expected outcomes with actual 
program performance with respect to the appeals under the legacy system 
(before the new system is implemented). Pub. L. No. 115-55, Sec.  
2(x)(1), 131 Stat. 1105, 1115.
---------------------------------------------------------------------------
    The Act further required VA to submit a comprehensive plan for 
implementing the new appeals process to the appropriate Committees of 
Congress and GAO. \4\ (VA submitted its plan to GAO on November 22, 
2017.) The Act delineates 22 legally required elements-some with 
subparts-for this plan. In addition, the Act requires VA to provide 
progress reports to the appropriate Committees of Congress and GAO at 
least every 90 days until the Act's changes to the appeals process 
generally go into effect and then at least every 180 days after this 
date for 7 years. VA submitted progress reports in February, May, 
August, and November 2018.
---------------------------------------------------------------------------
    \4\ The Act defines ``appropriate Committees of Congress'' as the 
Committee on Veterans' Affairs and the Committee on Appropriations of 
the Senate, and the Committee on Veterans' Affairs and the Committee on 
Appropriations in the House of Representatives.
---------------------------------------------------------------------------
    The Act also includes a provision for GAO to assess whether VA's 
appeals plan comports with sound planning practices and identify any 
gaps in the plan. \5\ In response, we have issued a series of reports 
and testimonies assessing VA's plans. In our March 2018 report, we 
concluded that while VA's November 2017 plan reflected aspects of sound 
planning, improvements in planning were still needed to ensure 
successful appeals reform. We recommended VA's plan (1) address all 
legally required elements in the Act; (2) articulate how VA will 
monitor and assess the performance of appeals processes; (3) augment 
its project plan for implementation; and (4) address risk more fully. 
\6\ VA agreed with our recommendations. \7\ In a July 2018 testimony we 
concluded that VA had updated its plan and taken some steps to address 
aspects of these four recommendations, but further steps were needed. 
\8\
---------------------------------------------------------------------------
    \5\ Pub. L. No. 115-55, Sec.  3(c), 131 Stat. 1105, 1118.
    \6\ GAO, VA Disability Benefits: Improved Planning Practices Would 
Better Ensure Successful Appeals Reform, GAO 18 352 (Washington, D.C.: 
Mar. 22, 2018). We also discussed our work and proposed recommendations 
in a January 2018 testimony. See GAO, VA Disability Benefits: 
Opportunities Exist to Better Ensure Successful Appeals Reform, GAO 18 
349T (Washington, D.C.: Jan. 30, 2018). See also our report on VA's 
appeals planning that pre-dated the Act: GAO, VA Disability Benefits: 
Additional Planning Would Enhance Efforts to Improve the Timeliness of 
Appeals Decisions, GAO 17 234 (Washington, D.C.: Mar. 23, 2017).
    \7\ Subsequently, in April 2018 we designated two of our four 
recommendations-monitoring and assessing performance as well as 
addressing risks-as ``priority recommendations'' for VA to implement. 
Priority recommendations are open recommendations we believe warrant 
priority attention from heads of key departments and agencies.
    \8\ GAO, VA Disability Benefits: Some Progress, but Further Steps 
Needed to Improve Appeals Reform Planning, GAO 18 661T (Washington, 
D.C.: July 24, 2018).
---------------------------------------------------------------------------
    My statement today addresses VA's recent progress in implementing 
the four recommendations in our March 2018 report, what aspects of 
those recommendations VA has yet to address, and the risks these gaps 
pose for successful implementation of appeals reform. \9\
---------------------------------------------------------------------------
    \9\ GAO 18 352.
---------------------------------------------------------------------------
    For this statement, we reviewed VA's most recent progress reports 
on its appeals reform plan, dated August and November 2018, and 
information we received from VA officials about steps taken to 
implement our March 2018 recommendations. We assessed VA's schedules 
and supporting documentation against applicable best practices in GAO's 
Schedule Assessment Guide. \10\ We also interviewed VA officials and 
reviewed information related to VA's progress in addressing related 
recommendations from work that we conducted prior to enactment of the 
Act. \11\
---------------------------------------------------------------------------
    \10\ GAO, GAO Schedule Assessment Guide: Best Practices for Project 
Schedules, GAO 16 89G (Washington, D.C.: December 2015).
    \11\ We have been monitoring VA's progress in addressing a related 
set of five recommendations from our 2017 report on VA's appeals 
planning. See GAO, VA Disability Benefits: Additional Planning Would 
Enhance Efforts to Improve the Timeliness of Appeals Decisions, GAO 17 
234 (Washington, D.C.: March 23, 2017). Specifically, we made five 
recommendations to improve VA's ability to implement its proposed 
reform to the appeals process while addressing a growing appeals 
workload, with which VA agreed in principle. In summary, we recommended 
that VA develop: (1) a detailed workforce plan, (2) a complete schedule 
of information technology (IT) updates, (3) better estimates of future 
workloads and timeliness, (4) a robust plan for monitoring appeals 
reform, and (5) a strategy for assessing whether the new process 
improves veterans' experiences over the current process. We also 
suggested that Congress require VA to pilot test appeals reform 
changes. As of December 2018, four of these recommendations remain 
open. We closed the third recommendation because VA developed better 
estimates of future workloads and timeliness. We also closed our 
suggestion to Congress because the Act authorizes VA to carry out 
programs to test any assumptions relied upon in developing its 
comprehensive plan and test the feasibility and advisability of any 
facet of the new appeals process.
---------------------------------------------------------------------------
    The work upon which this statement is based was conducted in 
accordance with generally accepted government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.

Background

VA's Current Disability Compensation Appeals Process

    VA's process for deciding veterans' eligibility for disability 
compensation begins when a veteran submits a claim to VA. \12\ Staff in 
one of VBA's 57 regional offices assist the veteran by gathering 
additional evidence, such as military and medical records, that is 
needed to evaluate the claim. Based on this evidence, VBA decides 
whether the veteran is entitled to compensation and, if so, how much. A 
veteran dissatisfied with the initial claim decision can generally 
appeal within 1 year from the date of the notification letter sent by 
VBA.
---------------------------------------------------------------------------
    \12\ For additional details about VA's current and new appeals 
processes and the Act, see GAO 18 352.
---------------------------------------------------------------------------
    Under the current appeals process (now referred to by VA as the 
legacy process), an appeal begins with the veteran filing a Notice of 
Disagreement. VBA then re-examines the case and generally issues a 
Statement of the Case that represents its decision. A veteran 
dissatisfied with VBA's decision can file an appeal with the Board. In 
filing that appeal, the veteran can indicate whether a Board hearing is 
desired. Before the Board reviews the appeal, VBA prepares the file and 
certifies it as ready for Board review. If the veteran requests a 
hearing to present new evidence or arguments, the Board will hold a 
hearing by videoconference or at a local VBA regional office. The Board 
reviews the evidence and either issues a decision to grant or deny the 
veteran's appeal or refers the appeal back to VBA for further work.

VA's New Appeals Process

    According to VA's appeals plan, VA intends to implement the Act by 
February 2019, by replacing the current appeals process with a process 
offering veterans who are dissatisfied with VBA's decision on their 
claim five options. Two of those options afford the veteran an 
opportunity for an additional review of VBA's decision within VBA, and 
the other three options afford them the opportunity to bypass 
additional VBA review and appeal directly to the Board.
    Under the new appeals process, the two VBA options will be:

    1.Request higher-level review: The veteran asks VBA to review its 
initial decision based on the same evidence but with a higher-level 
official reviewing and issuing a new decision.

    2.File supplemental claim: The veteran provides additional evidence 
and files a supplemental claim with VBA for a new decision on the 
claim. The veteran can also request a VBA hearing.

    The three Board options will be:

    3.Request Board review of existing record: The veteran appeals to 
the Board and asks it to review only the existing record without a 
hearing.

    4.Request Board review of additional evidence, without a hearing.

    5.Request Board review of additional evidence, with a hearing.

    In November 2017, VA initiated a test of the new VBA higher-level 
review and supplemental claim options. According to VA's appeals plan, 
a purpose of this test-the Rapid Appeals Modernization Program (RAMP)-
is to reduce legacy appeals by providing veterans with a chance for 
early resolution of their claims within VBA's new process. 
Participation in RAMP is voluntary, but veterans must withdraw their 
pending legacy appeal to participate, according to VA's appeals plan.

VA Has Not Provided Complete Information on Four Elements in the Act

    In our March 2018 report, we found that VA's November 2017 plan for 
implementing a new disability appeals process while attending to 
appeals under way in the current (legacy) process, addressed 17 of 22 
elements required by the Act. \13\ For the 5 remaining elements, we 
found that it partially addressed 4 elements related to implementation 
monitoring, productivity projecting, and workforce planning, and did 
not address 1 element related to identifying total resources. This 
element called for delineating the resources needed by VBA and the 
Board to implement the new appeals process and address legacy appeals.
---------------------------------------------------------------------------
    \13\ We identified 22 required elements for VA's comprehensive plan 
under section 3(a) and (b) of the Act. Specifically, subsection (a) 
contains 4 elements, and subsection (b) requires the appeals plan to 
address 18 elements. See GAO 18 352.
---------------------------------------------------------------------------
    We recommended in March 2018 that VA address all 22 required 
elements in the Act in VA's appeals plan to Congress-including 
delineating resources required for all VBA and Board appeals options-
using sensitivity analyses and results from its test, RAMP, where 
appropriate and needed. \14\
---------------------------------------------------------------------------
    \14\ Sensitivity analysis-used in scenario planning to, for 
example, determine the resources needed for implementing a new process-
is an analysis to determine how sensitive outcomes are to changes in 
assumptions, such as those used to determine resource needs. The 
assumptions that deserve the most attention should depend on the 
dominant benefit and cost elements and the areas of greatest 
uncertainty of the program or process being analyzed. See GAO, GAO Cost 
Estimating and Assessment Guide: Best Practices for Developing and 
Managing Capital Program Costs, GAO 09 3SP (Washington, D.C.: Mar 2, 
2009).
---------------------------------------------------------------------------
    Since our March 2018 report, VA has taken some action on each of 
the five elements that we found were not fully addressed at that time. 
For example, VA added details related to projecting staff productivity, 
identifying total resources, as well as determining personnel 
requirements and productivity projections for processing appeals. For 
identifying total resources, VA added FTE information for other offices 
that help implement the appeals process and prepared a model to project 
resource needs.
    Although VA now addresses the 1 element related to projecting 
productivity, it only partially addresses 4 elements related to 
monitoring implementation, workforce planning, and delineating the 
total resources. For example, as of November 2018, VA's plan does not 
contain metrics for monitoring implementation. Moreover, for total 
resources, the updated plan does not delineate the total resources 
required by VBA and the Board, such as the resources necessary for 
information technology and training. We acknowledge that in some cases 
delineating total resources could prove challenging, such as 
delineating information technology resources for the legacy and new 
appeals processes. We also acknowledge that implementing corrective 
actions to fully address these 4 elements may be challenging within the 
next several weeks, but we continue to believe VA has an opportunity to 
further address these 4 elements as part of certifying the agency's 
readiness prior to the full implementation of the new process.

VA Has Addressed Some Gaps in Its Plans to Monitor and Assess 
    Performance, though Further Steps Remain

    In our March 2018 report, we found gaps in VA's planning for how it 
will monitor and assess performance of the new appeals process when it 
is implemented. Specifically, we reported that the plan did not (1) 
establish timeliness goals for two of the three Board options (i.e., 
Board review of additional evidence without a hearing and Board review 
of additional evidence with a hearing); (2) articulate aspects of 
performance important for managing appeals, such as accuracy of 
decisions, veteran satisfaction with the process, or cost; (3) explain 
how the performance of the new appeals process would be compared to 
that of the legacy process; or (4) explain how the agency would monitor 
relative workloads of, and resources devoted to, the new and legacy 
appeals processes.
    To address these gaps, we recommended that VA clearly articulate in 
its appeals plan how VA will monitor and assess the new appeals process 
compared to the legacy process, including specifying a balanced set of 
goals and measures-such as timeliness goals for all VBA appeals options 
and Board dockets, and measures of accuracy, veteran satisfaction, and 
cost-and related baseline data. Articulating a balanced set of goals 
that cover key aspects of managing appeals is important to avoid 
promoting skewed behaviors (e.g., favoring timeliness over accuracy) 
and to fully understanding performance.
    In its progress reports, VA addressed some but not all aspects of 
this recommendation (see table 1).
[GRAPHIC] [TIFF OMITTED] T5949.001

    VA has made progress in monitoring performance and addressing 
workload changes in its new and legacy appeals processes, but still 
lacks a complete set of balanced goals and measures. As we noted in our 
July 2018 testimony, VA has developed sensitivity models and other 
analyses to monitor and forecast future VBA and Board workloads, 
production, and staffing requirements to help VA manage the legacy and 
new appeals processes. \15\ However, VBA and the Board have yet to 
specify a complete set of balanced goals for monitoring the performance 
of the new appeals processes. \16\ According to the November 2018 
progress report, the Board plans to develop timeliness goals after VA 
fully implements the new appeals process. Until VA fully develops a set 
of balanced goals and measures, the agency risks not fully 
understanding how well the reforms are performing.
---------------------------------------------------------------------------
    \15\ GAO 18 661T.
    \16\ Moreover, by not establishing key goals, such as timeliness 
goals for all Board options, until after fully implementing the new 
appeals process, VA is missing an opportunity to more fully define its 
vision for what successful implementation would look like and what 
resources would be required to achieve that vision.
---------------------------------------------------------------------------
    Regarding comparing the performance of the new and legacy appeals 
processes, VA has previously reported that the agency plans to 
implement the reporting requirements in section 5 of the Act. \17\ This 
section requires VA to report performance measures related to, among 
other things, timeliness, productivity, and outcomes, without 
specifying whether or how VA should compare performance of the new 
versus legacy processes.
---------------------------------------------------------------------------
    \17\ Section 5 of the Act requires VA to periodically publish on 
its website various metrics on the new and legacy processes. Pub. L. 
No. 115-55 Sec.  5, 131 Stat. 1105, 1123.
---------------------------------------------------------------------------
    In November 2018, VBA and Board officials told us they intend to 
use timeliness and productivity metrics from section 5 to compare the 
two processes. However, in its updated plans to date, VA has been 
reporting average timeliness of decisions made to date under RAMP-VA's 
test of the two VBA options-without reporting the average time cases 
are pending. Moreover, VA has not been reporting timeliness data on 
both decisions and pending cases according to the month that they 
entered into RAMP, which present a more balanced indication of 
performance and trends. \18\ In November 2018 VBA and Board officials 
told us they would consider reporting timeliness using a monthly cohort 
that reflects when appeals were filed. \19\
---------------------------------------------------------------------------
    \18\ We previously reported on the benefits and limitations of 
analyzing timeliness of a new process according to time of case 
completion versus time of case enrollment. In a prior review of the 
Integrated Disability Evaluation System (IDES), administered by the 
Department of Defense and VA, we found that analyzing IDES cases 
according to completion date resulted in shorter average processing 
times in the first year of IDES because it reflected those cases that 
were processed quickly. As such, organizing cases by enrollment date 
provided a better estimate of the processing times for the early IDES 
cases. However, this approach resulted in shorter processing times in 
the most recent full year of the program because only cases that 
finished quickly in that year could be analyzed. See figures 10 and 11 
from GAO, Military Disability System: Improved Monitoring Needed to 
Better Track and Manage Performance, GAO 12 676 (Washington, D.C.: Aug. 
28, 2012).
    \19\ VBA and Board officials also noted that cases taking longer to 
process often reflect the lack of supporting evidence provided by 
veterans.
---------------------------------------------------------------------------
    VBA and Board officials also said they have taken steps to collect, 
through surveys, comparable information on veterans' satisfaction with 
the new and legacy appeals processes. According to VBA and Board 
officials, they have pre-tested the surveys-which is considered a best 
practice by survey methodologists-and are coordinating the survey 
efforts with one another. VBA and Board officials also told us that the 
agency will report on accuracy and outcomes (grants and denials of 
claims) in the new process. However, they also stated that these 
measures would not provide a fair comparison with the legacy process 
because the Act eliminated several of the requirements formerly 
required in the legacy appeals administrative processes. \20\
---------------------------------------------------------------------------
    \20\ Further, Board officials stated that its current approach to 
quality review may not include sufficient cases to do a valid 
comparison of decision accuracy across the new and legacy processes, or 
among Board options.
---------------------------------------------------------------------------
    Although VA officials said they would develop a plan for comparing 
the performance of the two appeals processes after the new process is 
fully implemented, they did not indicate how soon they would do so. 
Developing such a plan would better position the agency to fully 
understand whether the new process is an improvement.

VA Has Augmented Its Master Schedule to a Limited Extent

    Our March 2018 report identified elements of a high-quality and 
reliable implementation schedule that were missing from VA's master 
schedule for appeals reform. Specifically, we reported that VA's high-
level master schedule-which the agency included with its November 2017 
plan-did not (1) include all key activities; (2) show which activities 
must finish prior to the start of other activities, or the amount of 
time an activity could be delayed before the delay affects VA's 
estimated implementation date; (3) reflect interim goals and milestones 
for monitoring implementation; or (4) assign resources for activities.
    We recommended that VA augment the master schedule for its appeals 
plan to reflect all activities-such as modifications to information 
technology systems-as well as assigned responsibilities, 
interdependencies, start and end dates for key activities for each 
workgroup, and resources. These steps establish accountability and 
reduce overall risk of implementation failures.
    In response to our recommendation, the Board, VBA and other VA 
administrations made progress over time with developing and integrating 
underlying plans into the integrated master schedule (IMS) in spring 
and summer 2018. According to VA officials, VA set a baseline schedule 
for implementing appeals reform in response to the potential February 
2019 implementation date established in the Act. \21\ Since November 
2017, VA's plan and progress reports have stated that VA uses an 
agency-wide governance structure to coordinate implementation, and 
regularly uses the schedule as a management tool for monitoring 
progress on appeals reform. For example, the Board's project manager 
meets regularly with those responsible for major activities to check 
progress, including weekly meetings with leadership, and identifies and 
corrects issues related to schedule execution.
---------------------------------------------------------------------------
    \21\ As previously noted, the Act built in flexibility for VA to 
phase in or continue preparing for certification beyond February 2019.
---------------------------------------------------------------------------
    In October 2018, VA provided us with lower-level schedules and 
information that allowed us to conduct a more detailed assessment of 
VA's IMS against applicable best practices criteria. \22\ The six 
criteria we assessed lower-level schedules against were:
---------------------------------------------------------------------------
    \22\ GAO 16 89G.

    <bullet>  Capturing all activities: schedule should reflect all 
activities necessary to perform work to accomplish a project's 
objective.
    <bullet>  Sequencing activities: activities should be logically 
sequenced in the order they are to be carried out so that critical 
program dates can be met.
    <bullet>  Assigning resources: schedule should reflect all 
resources necessary to complete work, verify whether resources will be 
available, and identify any constraints.
    <bullet>  Verifying horizontal and vertical traceability: schedule 
should be rational and logically sequenced, account for 
interdependencies among activities, and provide a way to evaluate the 
current status (horizontal traceability). Also, the various levels of a 
schedule-summary, intermediate, and detailed-should be consistent with 
one another and enable different teams to work to the same schedule 
expectations (vertical traceability).
    <bullet>  Updating the schedule using actual progress and logic: 
maintain and continually update the schedule to reflect a realistic 
forecast of start and end dates of activities.
    <bullet>  Maintaining a baseline schedule: use original 
configuration of the program plan as a point of comparison for the 
current plan to manage scope, timeframes, and required resources.

    We found that, while VA has made progress with providing more 
detail, its master and underlying schedules only minimally met sound 
practices for project management. Specifically, as with our March 2018 
assessment, we found that the schedule does not contain enough detail 
to manage the work or provide a realistic representation of the 
resources and time needed for this project. For example, the schedule 
did not contain a work breakdown structure that defines the work, 
activities, and resources necessary to accomplish implementation. 
Moreover, half of all the remaining activities are missing logic that 
shows which activities must finish prior to the start of other 
activities. In addition, the schedule contains an invalid critical 
path, meaning that the schedule does not present the amount of time 
that key activities could be delayed before such delays affect VA's 
estimated implementation date. \23\ Without a valid critical path, 
management cannot focus on activities that will detrimentally affect 
the key program milestones and deliveries if they slip.
---------------------------------------------------------------------------
    \23\ Further, the Board's overall timeline for implementing its 
information technology system, Caseflow, lacks information clarifying 
key activities associated with this implementation. Specifically, 
although VA's plan mentions that it is finalizing the algorithm for 
assigning appeals to judges for adjudication, there is no information 
that further describes this capability or its status.
---------------------------------------------------------------------------
    To address our March 2018 recommendation, VA would need to ensure 
that all activities are accounted for, that scheduled activities appear 
in the correct order, that resources are properly allocated, that all 
activities appear on the critical path, and that a schedule risk 
analysis accounts for all risks. We provide a more detailed explanation 
of our assessment results in appendix I.
    In addition, establishing an overly optimistic schedule can reduce 
capacity for carrying out a project and potentially create pressure to 
sacrifice the quality of work activities to meet deadlines. Moreover, 
many of VA's activities are slated to be concurrently completed just 
before implementation, posing a significant risk to implementing reform 
in February. For example, according to VA's schedule, the agency needs 
to complete 117 activities after January 1, 2019. Further, other VA 
efforts to redesign or update key aspects of VA's disability 
compensation process-including the Veterans Benefits Management System 
(VBMS)-were not driven by robust, comprehensive planning and did not 
achieve their schedule goals. \24\
---------------------------------------------------------------------------
    \24\ GAO, Veterans Benefits Management System: Ongoing Development 
and Implementation Can Be Improved; Goals Are Needed to Promote 
Increased User Satisfaction, GAO 15 582 (Washington, D.C.: Sept. 1, 
2015); Veterans' Disability Benefits: Timely Processing Remains a 
Daunting Challenge, GAO 13 89 (Washington, D.C.: Dec. 21, 2012); and, 
VA Disability Compensation: Actions Needed to Address Hurdles Facing 
Program Modernization, GAO 12 846 (Washington, D.C.: Sept.10, 2012).
---------------------------------------------------------------------------
    While VA intends to start full implementation in February, we do 
not know the extent to which the lack of a robust schedule poses risks 
to successful and smooth implementation. Even if taking corrective 
actions to address our findings may not be feasible before February, 
incorporating such lessons learned into future project planning could 
help VA improve its project scheduling capabilities.

VA Has Addressed Many, but Not All Key Risks to Implementation

    In our March 2018 report, we found that VA's appeals plan could 
more fully assess key risks related to implementing the new appeals 
process. In particular, we found that VA's plan did not include testing 
of new Board options or clearly define how it would assess the RAMP 
test of the VBA-only options before implementing them more broadly. 
\25\ Further, we reported that VA's plan had not comprehensively 
reflected key risks because the agency had not established a complete 
and balanced set of goals and measures, which are a necessary pre-
condition to effectively assessing risk. \26\
---------------------------------------------------------------------------
    \25\ We previously reported on the benefits of testing appeals 
reform and the risks of not doing so, and recommended that Congress 
require VA to develop options for testing appeal reform prior to 
implementation. See GAO 17 234. The Act authorizes VA to carry out 
programs to test any assumptions relied upon in developing its 
comprehensive plan and test the feasibility and advisability of any 
facet of the new appeals process.
    \26\ See GAO 18 352. A risk assessment is the identification and 
analysis of risks related to achieving the defined objectives. This 
assessment provides the basis for developing appropriate risk 
responses. See GAO, Standards for Internal Control in the Federal 
Government, GAO 14 704G (Washington, D.C.: September 2014).
---------------------------------------------------------------------------
    We recommended that VA ensure that the appeals plan more fully 
addresses risk associated with appeals reform by, for example, 
assessing risks against a balanced set of goals and measures, 
articulating success criteria and an assessment plan for RAMP, and 
testing or conducting sensitivity analyses of all five appeals options 
before fully implementing the new appeals process.
    In its progress reports, VA took many steps to address our 
recommendation, although key steps are remaining for VA to better 
assess risks associated with implementing appeals reform and managing 
appeals workloads in the legacy process (see table 2).
[GRAPHIC] [TIFF OMITTED] T5949.002

    Sound redesign and change management practices both suggest that 
tests be rigorously monitored and evaluated and that further roll-out 
occur only after an agency takes any needed corrective action and 
determines that the new process is achieving previously identified 
success criteria. \27\ Until VA takes these remaining steps, it may not 
have comprehensively addressed key risks to better position the agency 
for successful implementation of appeals reform.
---------------------------------------------------------------------------
    \27\ See GAO, Business Process Reengineering Assessment Guide GAO/
AIMD 10.1.15 (Washington, D.C.: May 1997) and Data Act: Section 5 Pilot 
Design Issues Need to Be Addressed to Meet Goal of Reducing Recipient 
Reporting Burden GAO 16 438 (Washington, D.C.: April 19, 2016).
---------------------------------------------------------------------------
    In conclusion, VA is undertaking an ambitious effort to reform its 
disability appeals process-while onboarding hundreds of new staff and 
implementing new technology-that will affect the lives of hundreds of 
thousands of veterans with disabilities for years to come. Consistent 
with our prior recommendations, VA has made concrete progress to 
improve its planning for disability appeals reform while it attends to 
legacy appeals. Efforts such as resuming sensitivity analysis to 
monitor workloads and testing VBA and Board appeals options will 
provide useful information to guide VA through the uncertainty often 
associated with process change.
    However, VA has reported it plans to fully implement the new 
disability appeals process in February 2019 even though it has yet to 
fully address our recommendations. While fully implementing our 
recommendations prior to February 2019 may not be feasible, doing so 
would better position VA to ensure successful implementation. 
Nevertheless, VA should still work to increase clarity around its plans 
prior to fully implementing reform. Moreover, many of the principles of 
sound planning practices that informed our recommendations remain 
relevant during process change. By continuing to improve its approach 
to performance measurement, scheduling, and risk management, even after 
implementation, VA could better ensure that the new process meets 
veterans' needs.
    Chairman Roe, Ranking Member Walz, and Members of the Committee, 
this concludes my prepared statement. I would be pleased to respond to 
any questions you may have at this time.

GAO Contact and Staff Acknowledgments

    For further information about this testimony, please contact 
Elizabeth H. Curda at (202) 512-7215 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d3b0a6a1b7b2b693b4b2bcfdb4bca5fd">[email&#160;protected]</a> Contact points 
for our Offices of Congressional Relations and Public Affairs may be 
found on the last page of this testimony. Other key contributors to 
this testimony include James Whitcomb (Assistant Director), Juan 
Collymore, Michele Grgich, Sara Pelton, and Rachel Pittenger. In 
addition, key support was provided by Susan Aschoff, Mark Bird, Alex 
Galuten, Jason Lee, Sheila R. McCoy, Almeta Spencer, and Walter Vance.

 Appendix I: Assessment of the Extent to Which VA Followed Aspects of 
                      Scheduling Leading Practices

    For this testimony, we assessed the steps that the Department of 
Veterans Affairs (VA) has taken to address our March 2018 
recommendations and what aspects remain unaddressed, including the 
extent to which VA is using sound practices for scheduling key 
projects. \1\ In summary, we identified several areas where VA's most 
recent schedule falls short of sound practices. Further incorporating 
sound practices into future project planning could help VA improve its 
project scheduling capabilities.
---------------------------------------------------------------------------
    \1\ GAO, GAO Schedule Assessment Guide: Best Practices for Project 
Schedules GAO 16 89G (Washington, D.C.: Dec. 2015). Underlying these 
characteristics are 10 leading practices. These characteristics and 
leading practices were developed in 2012 based on our practices for 
creating a reliable cost estimate and in consultation with experts from 
the scheduling community.
---------------------------------------------------------------------------
    We reviewed VA's integrated master schedule (IMS) for the appeals 
reform effort and underlying sub-schedules to assess them against 6 of 
the 10 best practices, which we determined most relevant to our March 
2018 recommendation that VA augment its master schedule for VA's 
appeals plan to reflect all activities-such as modifications to 
information technology systems-as well as assigned responsibilities, 
interdependencies, start and end dates for key activities for each 
workgroup, and resources, to establish accountability and reduce the 
overall risk of implementation failures. Specifically, we analyzed the 
following related scheduling best practices: (1) Capturing all 
activities, (2) Sequencing all activities, (3) Assigning resources to 
all activities, (4) Verifying that the schedule can be traced 
vertically and horizontally, (5) Updating the schedule using actual 
progress and logic and (6) Maintaining a baseline schedule.
    We assessed VA's lower-level schedules against these 6 best 
practices by:

    <bullet>  Checking for specific problems that could hinder the 
schedule's ability to respond to changes. For example, we:
    <bullet>  Examined if there are any open-ended activities (i.e., 
activities with no predecessor and/or successors),
    <bullet>  Searched for activities with poor logic:

    <bullet>  For example, Start to Start successor only or Finish to 
Finish predecessor only which represent dangling logic, or
    <bullet>  Logic on summary tasks rather than attached to detailed 
tasks (summary tasks are for organizing the schedule and should not 
drive the logic).
    <bullet>  Looked for activities with constraints which keep the 
schedule rigid (e.g., start no earlier than, finish no later than, 
etc.),
    <bullet>  Determined if activities were resource loaded-which helps 
to cost out the schedule-and examine whether resources are over-
allocated or not available when needed,
    <bullet>  Examined the schedule's critical path to determine 
whether or not it was reliable and logical,
    <bullet>  Examined schedule float and determined if it was 
reasonable, and
    <bullet>  Examined whether the schedule was baselined, its status 
cycle, and what deviations there were from the original plan. We also 
determined if there were any actual start or finish dates recorded in 
the future and whether there was any broken logic between planned 
tasks.

    We also interviewed VA officials responsible for managing the 
schedule. We scored each scheduling leading practice on a five-point 
scale: ``not met'', ``minimally met'', ``partially met'', 
``substantially met'' and ``fully met.'' We determined the 
characteristic assessment rating by assigning each best practice rating 
a number and taking the average. Our resulting conclusions based on 
this assessment are as follows:

    <bullet>  VA's project schedule minimally meets the best practice 
of capturing all activities. The schedule does not have well-defined 
start and finish milestones and there is not a project work breakdown 
structure (WBS) or corresponding WBS dictionary to define the work for 
each WBS element. We were not able to independently verify contractor 
work or major handoffs and deliverables in the schedule. In addition, 
there were activities with duplicate names, which could make 
communication difficult between VA teams, particularly between team 
members who are responsible for updating and integrating multiple 
schedules.
    <bullet>  VA's project schedule minimally meets the best practice 
of sequencing activities. There are issues with missing dependencies, 
dangling activities, summary links, constraints and lags that affect 
the schedule meeting this best practice. Specifically, of the remaining 
activities, 55 percent have missing logic, over 12 percent are 
dangling, 42 percent have date constraints and 4 percent have leads 
assigned. When activities are not correctly linked, the program cannot 
use the integrated master schedule (IMS) to identify disconnects or 
hidden opportunities and cannot otherwise promote efficiency and 
accuracy or control the program by comparing actual to planned 
progress. When this happens, the schedule will not allow a sufficient 
understanding of the program as a whole, and users of the schedule may 
lack confidence in the dates and the critical path.
    <bullet>  VA's project schedule minimally meets the best practice 
of assigning resources. While the schedule contains `Task Owner' 
assignments, the Task Owner information has no effect on the durations 
or forecasted start and finish dates of detailed activities. 
Information on resource needs and availability in each work period 
assists the program office in forecasting the likelihood that 
activities will be completed as scheduled. If the current schedule does 
not allow insight into the current or projected allocation of 
resources, then the risk of the program's slipping is significantly 
increased.
    <bullet>  VA's project schedule minimally meets the best practice 
of verifying the schedule is traceable horizontally and vertically. 
There was no evidence in the schedule of hand-offs within the schedule-
that is givers and receivers are easily identifiable in the schedule. 
We were unable to determine the relationship between lower-lever 
activities in the project schedule and higher-level activities and 
milestones in the management briefs provided to us. Specifically, we 
could not map the activities in the briefs to activities in the 
schedule. This inconsistency also prevented the verification of dates 
between the project schedule and higher-level management documents, 
even with documents that were provided from the same month as the 
October schedule.

    Products and outcomes were not easily traced through the sequencing 
of effort in the project schedule. In both cases the schedule did not 
respond appropriately to ``shocks''; that is, greatly increasing the 
durations of some activities to increase the overall time required to 
complete the project did not affect the dates of key milestones. The 
duration increase of each activity did not affect the overall time line 
because the activity in question had a constraint that would not allow 
the project to appropriately extend.

    <bullet>  VA's project schedule minimally meets the best practice 
of updating the schedule using progress and logic. Date anomalies, such 
as planned dates in the past or actual dates in the future, were found. 
The schedule was not current as of the date delivered to GAO. While 
officials report that they update the schedule regularly, a schedule 
narrative document does not accompany the schedule update that would 
detail changes to the current schedule and describe information such as 
the status of key milestone dates, changes in network logic, and a 
description of the current critical path(s).
    <bullet>  VA's project schedule minimally meets the best practice 
of maintaining a baseline schedule. Officials said that the baseline 
schedule is the basis for performance measurement. But while baseline 
start and baseline finish dates were provided in the initial schedule, 
its activities were too high level, obfuscating the calculation of 
detail variances in subsequent schedules. There is also no evidence of 
a schedule basis document, which would include a general overview of 
the purpose of the schedule, other key basis information such as an 
overview of assumptions, rationale for durations specific to the CMR 
schedule, and required software settings. There is also no evidence of 
performance measuring.

    This is a work of the U.S. government and is not subject to 
copyright protection in the United States. The published product may be 
reproduced and distributed in its entirety without further permission 
from GAO. However, because this work may contain copyrighted images or 
other material, permission from the copyright holder may be necessary 
if you wish to reproduce this material separately.

GAO's Mission

    The Government Accountability Office, the audit, evaluation, and 
investigative arm of Congress, exists to support Congress in meeting 
its constitutional responsibilities and to help improve the performance 
and accountability of the federal government for the American people. 
GAO examines the use of public funds; evaluates federal programs and 
policies; and provides analyses, recommendations, and other assistance 
to help Congress make informed oversight, policy, and funding 
decisions. GAO's commitment to good government is reflected in its core 
values of accountability, integrity, and reliability.

Obtaining Copies of GAO Reports and Testimony

    The fastest and easiest way to obtain copies of GAO documents at no 
cost is through GAO's website (https://www.gao.gov). Each weekday 
afternoon, GAO posts on its website newly released reports, testimony, 
and correspondence. To have GAO e mail you a list of newly posted 
products, go to https://www.gao.gov and select ``E-mail Updates.''

Order by Phone

    The price of each GAO publication reflects GAO's actual cost of 
production and distribution and depends on the number of pages in the 
publication and whether the publication is printed in color or black 
and white. Pricing and ordering information is posted on GAO's website, 
https://www.gao.gov/ordering.htm.
    Place orders by calling (202) 512-6000, toll free (866) 801-7077, 
or TDD (202) 512-2537.
    Orders may be paid for using American Express, Discover Card, 
MasterCard, Visa, check, or money order. Call for additional 
information.

Connect with GAO

    Connect with GAO on Facebook, Flickr, Twitter, and YouTube.
    Subscribe to our RSS Feeds or E-mail Updates. Listen to our 
Podcasts.
    Visit GAO on the web at https://www.gao.gov.

To Report Fraud, Waste, and Abuse in Federal Programs

    Contact: Website: https://www.gao.gov/fraudnet/fraudnet.htm
    Automated answering system: (800) 424-5454 or (202) 512-7700

Congressional Relations

    Orice Williams Brown, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d681bfbababfb7bba59996b1b7b9f8b1b9a0">[email&#160;protected]</a>, (202) 
512-4400, U.S. Government Accountability Office, 441 G Street NW, Room 
7125, Washington, DC 20548

Public Affairs

    Chuck Young, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ccb5a3b9a2abaffd8cabada3e2aba3ba">[email&#160;protected]</a>, (202) 512-4800, 
U.S. Government Accountability Office, 441 G Street NW, Room 7149, 
Washington, DC 20548

Strategic Planning and External Liaison

    James-Christian Blockwood, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="86f5f6e3eac6e1e7e9a8e1e9f0">[email&#160;protected]</a>, (202) 
512-4707, U.S. Government Accountability Office, 441 G Street NW, Room 
7814, Washington, DC 20548

GAO HIGHLIGHTS

VA DISABILITY BENEFITS

    Planning Gaps Could Impede Readiness for Successful Appeals 
Implementation

What GAO Found

    In a March 2018 report, GAO made four recommendations to address 
planning gaps in the Department of Veterans Affairs' (VA) November 2017 
plan for changing its appeals process for disability compensation 
claims. Since then, VA has updated its appeals reform plan and taken 
steps to address aspects of these recommendations, but further steps 
could enhance its readiness for implementation:

    <bullet>  Address all legally required elements. VA's November 2017 
plan did not address one and only partially addressed four of 22 
elements required by the Veterans Appeals Improvement and Modernization 
Act of 2017 (Act); GAO recommended VA fully address all 22. As of 
November 2018, VA addressed one element related to projecting 
productivity and took steps to partially address the other four. VA is 
still missing information the agency needs to certify that it has the 
resources needed to successfully implement appeals reform.
    <bullet>  Articulate plans for performance monitoring and 
assessment. GAO recommended VA clearly articulate how it will monitor 
and assess the new appeals process relative to the legacy process, 
including, for example, specifying timeliness goals for the five new 
appeals options, and measures for decision accuracy in processing 
appeals. As of November 2018, VA officials stated their intention to 
use productivity, timeliness, accuracy, and veteran satisfaction 
metrics to assess the new versus the legacy appeals processes. However, 
VA has yet to specify a complete set of goals or measures for 
monitoring and assessing the relative efficacy of the new process or 
articulate detailed steps and timeframes for establishing them.
    <bullet>  Augment master schedule. GAO recommended VA augment its 
master schedule for appeals reform to reflect sound practices for 
guiding implementation of reform. Although VA's updated schedule 
reflected progress since VA's original 2017 plan, it still did not 
fully meet sound practices for project management. For example, the 
schedule does not appropriately define the work, activities, and 
resources necessary to accomplish appeals reform implementation. 
Without following sound practices, it is unclear whether the schedule 
poses risks to successful implementation of appeals reform.
    <bullet>  Address risk fully. GAO recommended that VA's plan more 
fully address risks in implementing a new appeals process by, for 
example, testing all appeals options prior to full implementation. As 
of November 2018, VA took many steps to address risks, although 
opportunities exist to better assess them. For example, although VA has 
used lessons learned from tests to update the implementation process, 
it has not fully tested all aspects nor has it developed mitigation 
strategies for all identified risks, such as veterans appealing to the 
Board at higher rates than expected. Until VA takes these remaining 
steps, it may not have sufficiently accounted for key risks in 
implementing the new process.

Why GAO Did This Study

    VA's disability compensation program pays cash benefits to veterans 
with disabilities connected to their military service. In recent years, 
veterans who appealed VA decisions on their claims have waited an 
average of 3 years. The subset of appeals resolved by the Board of 
Veterans Appeals-a separate VA agency that provides a higher level of 
appeals review-took on average 7 years to resolve.
    The Veterans Appeals Improvement and Modernization Act of 2017 
makes changes to VA's current (legacy) process, giving veterans options 
to have their claims reviewed by VA or to appeal directly to the Board. 
The Act requires VA to submit to Congress and GAO a plan for 
implementing a new appeals process (which VA submitted in November 
2017) and periodic progress reports (which VA submitted in February, 
May, August, and November 2018). The Act also includes a provision for 
GAO to assess VA's original plan.
    In March 2018, GAO found that VA could help ensure successful 
implementation of appeals reform by addressing gaps in planning and 
made four recommendations, with which VA agreed. This testimony focuses 
on the steps VA has taken to address GAO's recommendations, what 
aspects remain unaddressed, and risks these gaps pose for 
implementation.
    For this statement, GAO reviewed VA's updated plans, assessed VA's 
schedules against best practices, interviewed VA officials and reviewed 
information they provided about steps taken to implement GAO's 
recommendations.

                                 <F-dash>
                        Statement For The Record

                  PARALYZED VETERANS OF AMERICA (PVA)
       STATEMENT OF STEVEN HENRY, ASSOCIATE LEGISLATIVE DIRECTOR
    Chairman Roe, Ranking Member Walz, and members of the Committee, 
Paralyzed Veterans of America (PVA) would like to thank you for the 
opportunity to offer our views on whether VA is ready to fully 
implement the Veterans Appeals Improvement and Modernization Act 
(Public Law 115-55).
    PVA employs a highly-trained force of over 70 National Service 
Officers (NSOs) across the Nation who develop veterans' claims for both 
member and non-member clients. These frontline employees spend a 
minimum of two years in specialized training. We maintain a National 
appeals office staffed by attorneys and legal interns who represent 
clients at the Board of Veterans' Appeals (Board). We also have 
attorneys who practice before the Board, the US Court of Appeals for 
Veterans Claims (CAVC), and the US Court of Appeals for the Federal 
Circuit. Of all the major veterans service organizations (VSOs), only 
PVA offers such continuity of representation from the filing of a claim 
through any needed appellate review.
    Our most important attribute, though, is that our service officers 
and attorneys consistently advocate for catastrophically disabled 
veterans. Complex claims are typical, not the exception. As we attempt 
to bring greater efficiency to the claims and appeals system, our 
perspective is geared toward ensuring that the due process rights of 
the most vulnerable among us-those most dependent on benefits-are not 
watered down for the sake of expediency.
    The Board is an administrative tribunal within the Department of 
Veterans Affairs (VA). VSOs play a crucial role in the appeals process 
by providing representation to veterans who are appealing their benefit 
claims before the Board. For this reason, access to veteran's records 
is imperative. Historically, the Board used the Veterans Appeals 
Control and Locator System (VACOLS), which VSOs had access to. Within 
VACOLS, a representative could locate the status of the veteran's 
appeal and other information critical to the veteran's case.
    When VA started the process of implementing Appeals Modernization, 
it was determined that VACOLS would no longer be needed at the Board. 
Instead, a new program, Caseflow would be developed and implemented. 
Unfortunately, the process for implementation has not been smooth, nor 
have VSOs received full access to every facet of the new program. In 
the December 12th hearing, VA was confident with their progress 
implementing Caseflow; however, VSOs still do not have access to vital 
information provided by eReader, eFolder express, and other IT 
programs, including the ability to download an entire file into PDF 
form from the Veterans Benefits Management System (VBMS). Although VA 
is making strides implementing its systems, they are neglecting to 
provide access for VSOs. VA is exhibiting a false sense of confidence, 
when in reality, they have made little progress ensuring these programs 
will be available to VSOs, which are critical when providing 
comprehensive representation.
    In fiscal year (FY) 2018, the Board issued 85,288 decisions, a 62 
percent increase over FY 17's total of 52,537. With the increase in 
decisions came an increase of overall grants. While this is good news, 
PVA is concerned about how VA, more specifically the Appeals Management 
Office (AMO), formerly known as the Appeals Management Center (AMC), is 
addressing the growing backlog of grant promulgations. At one time, 
veterans had to wait in excess of six months to receive retro payments 
due to the backlog of grant promulgations at the AMC. VA should be 
proactive in dedicating resources to address the sharp increase of 
Board decisions.
    PVA's biggest concern with Appeals Modernization is VA's objective 
to provide decisions within 365 days, while still actively working on a 
large backlog of traditional appeals. The Board has communicated to 
VSOs that there will be a time limit of 60 days to complete and submit 
Informal Hearing Presentations (IHPs) on behalf of veterans who are 
appealing their benefit claims. PVA is concerned that by placing a time 
limit on IHPs, VSOs are being asked to divert more resources to new 
claims, rather than providing equal focus between traditional and new 
claims. Moreover, if a veteran has 90 days to submit more evidence, how 
can VA expect VSOs to submit an IHP before reviewing the veteran's 
complete record? When VA was asked what the consequence of failing to 
submit an IHP within the mandated 60 days would be, VA's response was 
``we have no idea.'' Whether the time limit is 60, 90, or 120 days, 
VSOs are being held to a standard that has no basis, nor is it included 
in the proposed regulation changes. Further, VSOs are not given the 
tools, like full access to Caseflow, to help us meet these goals.
    We all want Appeals Modernization to be successful, and we hope VA 
will provide the tools and information necessary to VSOs to ensure we 
can fully contribute to its success.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
